<html>
<title> - THE GLOBAL NEED FOR ACCESS TO SAFE DRINKING WATER</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]




           THE GLOBAL NEED FOR ACCESS TO SAFE DRINKING WATER

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON COMMERCE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                               __________

                            OCTOBER 12, 2000

                               __________

                           Serial No. 106-162

                               __________

            Printed for the use of the Committee on Commerce


                   U.S. GOVERNMENT PRINTING OFFICE
67-636                     WASHINGTON : 2001


                         COMMITTEE ON COMMERCE

                     TOM BLILEY, Virginia, Chairman

W.J. ``BILLY'' TAUZIN, Louisiana     JOHN D. DINGELL, Michigan
MICHAEL G. OXLEY, Ohio               HENRY A. WAXMAN, California
MICHAEL BILIRAKIS, Florida           EDWARD J. MARKEY, Massachusetts
JOE BARTON, Texas                    RALPH M. HALL, Texas
FRED UPTON, Michigan                 RICK BOUCHER, Virginia
CLIFF STEARNS, Florida               EDOLPHUS TOWNS, New York
PAUL E. GILLMOR, Ohio                FRANK PALLONE, Jr., New Jersey
  Vice Chairman                      SHERROD BROWN, Ohio
JAMES C. GREENWOOD, Pennsylvania     BART GORDON, Tennessee
CHRISTOPHER COX, California          PETER DEUTSCH, Florida
NATHAN DEAL, Georgia                 BOBBY L. RUSH, Illinois
STEVE LARGENT, Oklahoma              ANNA G. ESHOO, California
RICHARD BURR, North Carolina         RON KLINK, Pennsylvania
BRIAN P. BILBRAY, California         BART STUPAK, Michigan
ED WHITFIELD, Kentucky               ELIOT L. ENGEL, New York
GREG GANSKE, Iowa                    TOM SAWYER, Ohio
CHARLIE NORWOOD, Georgia             ALBERT R. WYNN, Maryland
TOM A. COBURN, Oklahoma              GENE GREEN, Texas
RICK LAZIO, New York                 KAREN McCARTHY, Missouri
BARBARA CUBIN, Wyoming               TED STRICKLAND, Ohio
JAMES E. ROGAN, California           DIANA DeGETTE, Colorado
JOHN SHIMKUS, Illinois               THOMAS M. BARRETT, Wisconsin
HEATHER WILSON, New Mexico           BILL LUTHER, Minnesota
JOHN B. SHADEGG, Arizona             LOIS CAPPS, California
CHARLES W. ``CHIP'' PICKERING, 
Mississippi
VITO FOSSELLA, New York
ROY BLUNT, Missouri
ED BRYANT, Tennessee
ROBERT L. EHRLICH, Jr., Maryland

                   James E. Derderian, Chief of Staff

                   James D. Barnette, General Counsel

      Reid P.F. Stuntz, Minority Staff Director and Chief Counsel

                                  (ii)




                            C O N T E N T S

                               __________
                                                                   Page

Testimony of:
    Huq, Anwarul, Research Associate Professor, Center of Marine 
      Biotechnology, University of Maryland Biotechnology 
      Institute..................................................    16
    Jones, Gerald, Vice President, International Services, 
      American Red Cross.........................................    11
    Lockery, Peter, Senior Advisor, Water Sanitation and 
      Environmental Health Care..................................    21
    Quintero, Adrianna I., Project Attorney for Public Health, 
      Natural Resources Defense Council..........................    29
    Sampat, Payal, Research Associate, World Watch Institute.....    34
    Weiner, Hal, Executive Producer, PBS Series Journey to Planet 
      Earth, Screenscope, Inc....................................     4

                                 (iii)

  

 
           THE GLOBAL NEED FOR ACCESS TO SAFE DRINKING WATER

                              ----------                              


                       THURSDAY, OCTOBER 12, 2000

                          House of Representatives,
                                     Committee on Commerce,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:15 a.m., in 
room 2123, Rayburn House Office Building, Hon. Tom Bliley 
(chairman) presiding.
    Members present: Representatives Bliley, Tauzin, Gillmor, 
Shimkus, Bryant, Brown, Barrett and Luther.
    Staff present: Nandan Kenkeremath, majority counsel; Bob 
Meyers, majority counsel; Kristi Gillis, legislative clerk; and 
Dick Frandsen, minority counsel.
    Chairman Bliley. The committee will come to order.
    This morning this hearing focuses on the global need for 
access to safe drinking water. The Chair would recognize 
himself for a brief opening statement.
    The Food Quality Protection Act and the Safe Drinking Water 
Act amendments of 1996 are among the most substantial laws from 
the Commerce Committee. These laws modernized programs and gave 
Americans better access to safe, abundant and affordable food 
and water. The committee continues a vigilant oversight role in 
these areas.
    The good fortune in this country is not shared by the 
world, however. UNICEF estimates that over 1 billion people in 
the developing world do not have access to safe and plentiful 
drinking water, and almost 3 billion have no adequate 
sanitation systems.
    Polluted water supplies cause the spread of infectious 
disease. Nearly half of the world's population suffers from 
water-related disease. Most of those affected are poor and live 
in developing countries. U.N. Secretary General Kofi Annan has 
stated that if present consumption patterns continue, within 25 
years, 2 out of every 3 people on Earth will live in dangerous 
conditions with respect to drinking water.
    Only a patchwork of international nongovernmental 
organizations are involved in improving drinking water. Despite 
the involvement of these organizations, the public health 
concern from the global lack of access to safe drinking water 
and sanitation remains very serious. The first thing we need to 
do is understand the nature and importance of this issue. That 
is the purpose of this hearing.
    The witnesses are experts who can provide an overview, but 
there is obviously much more to this problem. Increasingly, 
public health problems do not have boundaries. Moreover, 
competition for water can increase as a threat to international 
stability and peace. Finally, a global strategy for water 
security takes many years to implement. Tools exist today for 
local and regional water management and protection. However, 
current policies are not workable. Addressing this problem will 
require political understanding and resolve.
    This country can create the right atmosphere for solutions. 
We can contribute expertise in technology and watershed 
management. We can focus on the public health concerns that do 
not stop at the border.
    My time as chairman of the Commerce Committee is drawing to 
a close. This hearing, in fact, will probably be the last 
hearing that I will formally chair. Leaving this committee and 
all it has done over the last 6 years will be difficult, but I 
also know that the potential for the committee work is great. 
Members will explore new public policy challenges and rise to 
the task of finding solutions. It is with that spirit I wanted 
to hold today's hearing and challenge the members who will 
carry on the committee's efforts to reach great goals.
    The Chair yields back the balance of his time and 
recognizes the ranking member of the Health and Environment 
Subcommittee, the gentleman from Ohio, Mr. Brown.
    Ms. Brown. Thank you, Mr. Chairman. It is a pleasure to sit 
with you at, as you say, perhaps your last hearing. Thank you 
for the service and the cooperation over the many years you 
have been here.
    Today's hearing on the global need for access to safe 
drinking water addresses a huge and growing problem. As a 
member of the International Relations Committee, I am well 
aware of the role that access to clean, safe drinking water 
plays in public health and economic development and even in 
conflict within and among nations.
    It is estimated that 1 billion people still lack safe 
drinking water, and almost 3 billion do not have adequate 
sanitation. More than 2 million children die each year from 
sanitation-related diseases. According to the U.N. 
Environmental Program, if present consumption patterns 
continue, two out of every three people on Earth will live in 
water-stressed conditions by the year 2025.
    While some say technology can solve all of the world's 
problems, we need to be aware of the enormity of this problem. 
Harper's magazine a couple of months ago pointed out that for 
every user of the Internet in the country of India, 135 Indians 
do not have access to safe drinking water. We should be 
concerned about the welfare of people in developing countries 
where safe drinking water is also in short supply for their own 
sakes, but we should also be concerned for more parochial 
reasons. The world's borders simply can't hold back the spread 
of water-related disease, the spread of water-related 
conflicts, or the flight of refugees from poor conditions.
    Furthermore, as the world's need for water grows, a demand 
for water exports from the Great Lakes and other fresh-water 
bodies in the world and the U.S. will also grow. The 
International Joint Commission has stated that even small 
diversions from the Great Lakes could harm the lakes' 
ecosystem. My district lies along Lake Erie, and my 
constituents strongly oppose international sales of water from 
the Great Lakes. Instead, we should work with other nations to 
improve water infrastructure and encourage conservation.
    Mr. Chairman, as ranking member on the Health and 
Environment Subcommittee, which is the authorizing committee 
for the Safe Drinking Water Act, I cannot talk about drinking 
water today without expressing my concern about the new rider 
in the VA-HUD, Independent Agencies appropriations bill on 
arsenic standards and drinking water. Millions of Americans 
have arsenic in their drinking water at levels that scientists 
say puts their health at risk. Arsenic is known to cause skin, 
bladder and lung cancer. Doctors have also identified 
incidences of heart disease, stroke and diabetes from arsenic 
in drinking water supplies. A senior EPA official in charge of 
the drinking water program has called arsenic in drinking water 
a significant threat to our public health.
    The current standard of 50 parts per billion has not been 
changed in more than 50 years. That is why Congress set a 
deadline of January 1, 2000, in the 1996 Safe Drinking Water 
Act amendments for an updated, more protective standard. The 
purpose of that deadline was to force the EPA to take action to 
revise this standard.
    The prestigious National Research Council, an arm of the 
National Academy of Sciences, last year reaffirmed that the 
current standard does not protect the public health and urged a 
new standard be promulgated as expeditiously as possible. 
Virtually everyone from World Health Organization to the water 
supply companies in the U.S. agree that we need a more 
stringent standard for arsenic in our drinking water. The only 
debate is whether the standard should be 100 percent more 
stringent, 500 percent more stringent or, as the EPA has 
recommended, 1,000 percent more stringent.
    The Republicans in Congress have added an environmental 
rider in the VA-HUD bill that will result in yet another delay 
before the new, stronger protective standard comes out. It has 
been reported that the rider was added at the behest of the 
mining industry. This change to the Safe Drinking Water Act 
took place in secret negotiations on the VA-HUD bill. No formal 
conference was held with meetings open to the public. Neither 
the bill reported by the Senate Appropriations Committee nor 
the bill that passed the House contains such a provision, but 
somehow it ended up in the bill, and now we find it in the 
conference report.
    Make no mistake about it. The purpose of this rider is to 
delay yet again the new protective arsenic standard for our 
citizens' safe drinking water. This is the wrong way for this 
body to do its business and will cause further harm to those 
millions of Americans whose drinking water contains unhealthy 
levels of arsenic.
    Mr. Chairman, I thank you for holding this hearing about 
problems of global access to safe drinking water. I 
congratulate you on your service, and I yield back the balance 
of my time.
    Chairman Bliley. The time of the gentleman has expired.
    The gentleman from Illinois Mr. Shimkus.
    Mr. Shimkus. Thank you, Mr. Chairman. Let me say it is an 
honor to serve with you up to the 11th hour of this Congress, 
and we will go down working together. It has just been an 
honor. I know you do also want to pause and reflect on the loss 
of our sailors' lives this morning as we keep everything in 
perspective and remember that we have great servants throughout 
the country trying to do the bidding for our country.
    I remember as a young cadet down in Panama being warned, 
don't drink the water. They would give us canteens, and we were 
supposed to drop two iodine tablets in there, significantly 
just killing everything in the water. We had a few young, smart 
cadets who obviously didn't follow instructions, and they 
became very, very sick because of that. Now, that is also part 
of the change between societies, but it also highlights the 
importance of drinking water to me, and a thing we take pretty 
much for granted.
    In rural America we are fighting very diligently, through 
the USDA and rural water program, to provide safe drinking 
water out to the areas where it not be cost-effective or 
efficient. I think this hearing will also address the issue of 
safe drinking water for Third World countries, which have a 
very similar problem: costly, probably an inefficient way to 
attempt to meet a need.
    I like coming to hearings, and I like the ability to get a 
chance to learn things, and that is what we are here to do. I 
thank the chairman for calling this hearing, and, Mr. Chairman, 
I yield back the balance of my time.
    Chairman Bliley. The time of the gentleman has expired.
    We will now hear testimony from our first witness. We would 
ask you if you could to summarize your written statement and 
try to limit it to 5 minutes, and your full statements will 
appear in the record of the committee.
    Our first witness is Mr. Hal Weiner, executive producer of 
the PBS series, Journey to Planet Earth.
    Welcome to the committee, Mr. Weiner.

    STATEMENTS OF HAL WEINER, EXECUTIVE PRODUCER, PBS SERIES 
JOURNEY TO PLANET EARTH, SCREENSCOPE, INC.; GERALD JONES, VICE 
PRESIDENT, INTERNATIONAL SERVICES, AMERICAN RED CROSS; ANWARUL 
  HUQ, RESEARCH ASSOCIATE PROFESSOR, CENTER OF MARINE BIOTECH-
 NOLOGY, UNIVERSITY OF MARYLAND BIOTECHNOLOGY INSTITUTE; PETER 
  LOCKERY, SENIOR ADVISOR, WATER SANITATION AND ENVIRONMENTAL 
HEALTH CARE; ADRIANNA I. QUINTERO, PROJECT ATTORNEY FOR PUBLIC 
 HEALTH, NATURAL RESOURCES DEFENSE COUNCIL; AND PAYAL SAMPAT, 
           RESEARCH ASSOCIATE, WORLD WATCH INSTITUTE

    Mr. Weiner. Thank you, Mr. Chairman and members of the 
House Committee on Commerce. As one of the executive producers 
of the PBS series Journey to Planet Earth, I certainly welcome 
the opportunity to share some of the thoughts of myself and our 
crew and our distinguished panel of advisors about why we as a 
Nation should care about the quality and availability of the 
world's drinking water.
    Let me just very briefly mention that we are guided by a 
blue ribbon panel of scientists. We are funded in part by the 
National Science Foundation, and our series is seen by 
approximately 20 million people throughout the world. It is a 
responsibility we at PBS do not take lightly.
    As a filmmaker and journalist, I have worked in nearly 50 
countries, and I have seen clear evidence that the growing 
shortage of safe drinking water has become a public health and 
economic emergency of global proportions. I think, equally 
important, it has become a national security issue. Places like 
Brittany, Shanghai and Mexico City we have seen intensive 
agriculture and uncontrolled industrial development seriously 
contaminate nonrenewable aquifers. We have filmed along the 
shores of the Amazon, the Mekong and Jordan Rivers and found 
that the forestation and population pressures impair the 
economy of local communities by damaging and depleting 
watershed resources. We have also documented stories in 
Zimbabwe, Vietnam and the Middle East which suggest that 
conflicts over environmental scarcities such as water can lead 
to increased hostilities that could ultimately threaten our 
country's national security.
    I guess I am sort of part of the show-and-tell part of this 
hearing, and I would like to do a little showing now. I have 
brought along a couple of video clips that each run maybe 2 or 
3 minutes. Here they are.
    [Videotape played.]
    Mr. Weiner. The next section coming up is in Jericho.
    [Videotape played.]
    Mr. Weiner. The final segment is in Zimbabwe.
    [Videotape played.]
    Mr. Weiner. Mr. Chairman, committee members, I hope that 
what I have shared with you this morning helps bring an urgency 
to finding reasonable solutions to a major environmental, 
economic and, what I have learned recently in my travels around 
the world, a potentially political crisis. Thank you for your 
time and courtesies.
    [The prepared statement of Hal Weiner follows:]

    [GRAPHIC] [TIFF OMITTED] T9955.001
    
    [GRAPHIC] [TIFF OMITTED] T9955.002
    
    [GRAPHIC] [TIFF OMITTED] T9955.003
    
    [GRAPHIC] [TIFF OMITTED] T9955.004
    
    [GRAPHIC] [TIFF OMITTED] T9955.005
    
    [GRAPHIC] [TIFF OMITTED] T9955.006
    
    [GRAPHIC] [TIFF OMITTED] T9955.007
    

    Chairman Bliley. Thank you, Mr. Weiner.
    We will now hear from Mr. Gerald Jones, Vice President of 
International Services of the American Red Cross. Mr. Jones.

                    STATEMENT OF GERALD JONES

    Mr. Jones. Chairman Bliley, Representative Brown, other 
distinguished members of the Commerce Committee, I am Jerry 
Jones, Vice President of International Services of the American 
Red Cross, and I want to thank you for the opportunity to 
testify today on the global need for access to safe drinking 
water, one of our principal health-related activities in 
assisting vulnerable populations around the world.
    Chartered by Congress in 1905, the American Red Cross is 
mandated to provide a system of international and domestic 
disaster relief. Our mission is to help people prevent, prepare 
for, and respond to emergencies. We serve as the recognized 
representative of the International Red Cross and Red Crescent 
movement within the United States. That movement is composed of 
the International Committee of the Red Cross, the guardian of 
the Geneva Conventions; the 176 individual Red Cross and Red 
Crescent societies around the world, including the American Red 
Cross; and our International Federation, which serves as a 
coordinating body. This unique global network of community-
based operations provides an unmatched capacity for immediate 
humanitarian response anywhere in the world. Further, it allows 
the American Red Cross to supplement the response of the U.S. 
Government to international disasters and public health crises, 
such as that posed by the lack of safe drinking water.
    According to The World's Water report in 1998 and 1999, an 
authoritative source, over 1 billion people in the world are 
without safe drinking water or adequate sanitation day to day. 
This year the American Red Cross is assisting more than 380,000 
people by implementing water and sanitation programs in Central 
America, Africa and the Balkans. The American Red Cross is 
providing technical and financial assistance to improve water 
supplies and to promote health education. Our total current 
funding to improve water sanitation is $15 million provided by 
private contributors; however, we have the capacity to expand 
our response with increased funding.
    Over the past decade, the American Red Cross has worked 
tirelessly to tackle health-related problems associated with 
water and sanitation in all corners of the globe. While the 
American Red Cross's entry into this field is usually triggered 
by a disaster, replacing water and sanitation systems destroyed 
by natural disasters such as Hurricane Mitch, many of our 
assistance programs continue for 2 years or so afterwards.
    The American Red Cross has helped Rwandans rebuild 
community water systems following their civil war in 1995. 
Following the 1995 war in Azerbaijan, people who fled to 
refugee camps were the beneficiaries of the American Red Cross-
designed water and sanitation program, whose water treatment 
facilities 5 years later still sustain thousands of families, 
including children and elderly.
    In the aftermath of the 1998 tidal wave disaster in Papua, 
New Guinea, we provided financial assistance and sponsored a 
water engineer to help affected communities resettle in new 
villages out of harm's way. Currently major water sanitation 
programs are under way to assist 75,000 people in Central 
America still recovering from the devastation caused by 
Hurricane Mitch.
    Lack of access to safe drinking water and adequate 
sanitation leads to infectious diseases: diarrhea, dysentery, 
cholera, typhoid, malaria, skin diseases and others. Despite 
international efforts targeting this health crisis over the 
past two decades, modest gains often have been outpaced by 
increased population growth and a lack of local capacities to 
maintain already built infrastructures. As health education is 
a critical component to water supply programs, the American Red 
Cross, through the larger Red Cross movement, has the advantage 
of an existing base of trained volunteers in local communities 
throughout its network of Red Cross and Red Crescent societies 
located in more than 176 countries worldwide.
    There are two recommendations that I would like to share 
with the committee. First, we need to make better use of best 
industry practices. There are numerous examples of water, 
sanitation and health education projects over the past decades 
that achieve their goals as well as many lessons learned from 
less successful efforts. From those experiences there is a 
consensus among WHO, among Red Cross organizations, and others 
involved about what approaches work best. The American Red 
Cross believes that in order to effectively reduce water-
related diseases through improved access to safe drinking water 
and adequate sanitation, the following program strategies 
should be adhered to. Please bear in mind that these 
recommendations focus on ways to make programs in rural areas 
as sustainable as possible over the longer term.
    We believe that we must address sanitation, hygiene and 
health education needs along with making improvements to water 
and sanitation facilities. Improved health often depends on how 
water is utilized and is not simply a matter of supplying more 
of it. We feel that you must require the beneficiary population 
to be involved in health promotion, water system design and 
operations, and to utilize local water committees to facilitate 
operation and maintenance.
    For example, in Nicaragua, health promoters and the persons 
responsible for maintaining equipment receive specific training 
in these areas.
    We feel you must use technologies appropriate and 
affordable in local settings. For example, gravity-fed water 
systems are appropriate where reliable power systems may not be 
available, such as in northwest Kenya's Kerio Valley, where we 
are currently working. We feel you must utilize to the extent 
possible locally manufactured or procured equipment and 
construction materials, as well as local expertise and labor. 
For example, hand pumps used to draw water from wells routinely 
requires spare parts. It is necessary that these be readily 
available locally.
    We feel you must work in collaboration with local 
government agencies, being cognizant of local legal frameworks. 
In Azerbaijan, for example, water rights were secured through 
local government prior to the drilling of new boreholes.
    We feel it important that you account for local gender and 
local cultural practices. For example, better access to safe 
drinking water in Papua, New Guinea, meant installing a pipe 
system to bring water into the village. This drastically 
reduced the distance that women had to carry water and allowed 
them to spend more time in preventive health measures for their 
own children.
    Second, just as this committee is doing today by holding 
this oversight hearing, we need a renewed commitment to address 
global water sanitation and health education programming. Over 
the past decades, international organizations and their local 
partners have developed their various capacities to implement 
assistance programs in the areas of water and sanitation. It is 
crucial that governments and the general public alike renew 
their commitment to funding health education and safe drinking 
water programs around the world, with the aim of saving lives 
and improving health.
    Mr. Chairman, I want to thank you for the opportunity to 
share the American Red Cross experiences and efforts to address 
the issue of global safe drinking water supplies. We look 
forward to working with Congress and the new administration to 
expand our efforts in this vital area of global public health. 
Thank you.
    [The prepared statement of Gerald Jones follows:]

   PREPARED STATEMENT OF GERALD JONES, VICE PRESIDENT, INTERNATIONAL 
                      SERVICES, AMERICAN RED CROSS

                              INTRODUCTION

    Chairman Bliley, Representative Dingell, and other distinguished 
members of the Commerce Committee, I am Gerald Jones, Vice President, 
International Services of the American Red Cross. Thank you for the 
opportunity to testify today on the global need for access to safe 
drinking water--one of our principal health related activities in 
assisting vulnerable populations around the world.
    Chartered by Congress in 1905, the American Red Cross is mandated 
to provide a system of international and domestic disaster relief. Our 
mission is to help people prevent, prepare for and respond to 
emergencies. The American Red Cross is an independent, nonprofit 
organization, dedicated to providing critical people-focused services. 
We serve as the recognized representative of the International Red 
Cross and Red Crescent Movement within the United States. The Movement 
is composed of the International Committee of the Red Cross, guardian 
of the Geneva Conventions; the 176 individual Red Cross and Red 
Crescent Societies around the world, including the American Red Cross; 
and the International Federation, which serves as a coordinating body. 
This unique global network of community based operations provides an 
unmatched capacity for immediate humanitarian response anywhere in the 
world. Further, it allows the American Red Cross to supplement the 
response of the United States government to international disasters and 
public health crises, such as that posed by the lack of safe drinking 
water.
    According to The World's Water 1998-1999, an authoritative source, 
over a billion people in the world are without safe drinking water or 
adequate sanitation day to day. This year the American Red Cross is 
assisting more than 380,000 people by implementing water and sanitation 
programs in Central America, Africa and the Balkans. In numerous 
communities throughout El Salvador, Guatemala, Honduras, Nicaragua, 
Kosovo, Kenya, and Mozambique the American Red Cross is providing 
technical and financial assistance to improve water supplies and 
promote health education. Our total current funding to improve water 
sanitation is $15 million provided by private contributors; however, we 
have the capacity to expand our response with increased funding.

            RED CROSS AND RED CRESCENT MOVEMENT INVOLVEMENT

    Over the past decade, the American Red Cross and our Red Cross and 
Red Crescent Movement partners, including the International Committee 
of the Red Cross (ICRC), International Federation of Red Cross and Red 
Crescent Societies, and National Societies, have been working 
tirelessly to tackle the health related problems associated with water 
and sanitation in all corners of the globe.

Role of the American Red Cross
    While the American Red Cross' entry into the field is usually 
triggered by a disaster, replacing water and sanitation systems 
destroyed by natural disasters such as Hurricane Mitch, many of our 
assistance programs continue for a year or more afterwards The American 
Red Cross has helped Rwandans rebuild community water systems following 
the civil war in 1995. Following the 1995 war in Azerbaijan, people who 
fled to refugee camps were the beneficiaries of an American Red Cross 
designed water and sanitation program whose water treatment facilities, 
five years later, still sustain thousands of families, including 
children and elderly. In the aftermath of a 1998 tidal wave disaster in 
Papua New Guinea, the American Red Cross provided financial assistance 
and sponsored a water engineer to help affected communities resettle 
new villages out of harms way. Currently, major water and sanitation 
programs are underway to assist over 75,000 people in Honduras, 
Nicaragua, El Salvador and Guatemala still recovering from the 
devastation caused by Hurricane Mitch.
    Lack of access to safe drinking water and adequate sanitation leads 
to infectious diseases like diarrhea, dysentery, cholera, typhoid, 
malaria, skin diseases and others. Despite international efforts 
targeting this health crisis over the past two decades, modest gains 
often have been outpaced by increased population growth and a lack of 
local capacities to maintain built infrastructures. So the situation 
persists and coverage levels are eroding, according to the World Health 
Organization which will soon release results of a ten-year survey of 
this trend. As health education is a critical component to water supply 
programs, the American Red Cross, through the Red Cross Movement, has 
the advantage of an existing base of trained volunteers in local 
communities throughout its network of Red Cross and Red Crescent sister 
Societies located in more than 176 countries worldwide.

Role of the International Committee of the Red Cross
    The International Committee of the Red Cross (ICRC) leads the 
Movement's response in conflict situations. In 1999, the ICRC conducted 
operations with a water supply component in 31 different countries. 
While the historical record indicates that nations seldom go to war 
over water, the present day reality is that the vision for improved 
health requires increasing access to fresh water when nearly two-thirds 
of the world's population live in river basins that demand sharing 
arrangements between countries (Forum: War and Water, ICRC, 1998). For 
example, the potential for conflict increases as the pressure for water 
becomes greater between countries along rivers, such as along the Nile, 
the Amazon. It should be noted that through appropriations to the 
Department of State Department, Congress provides a sizeable portion of 
the financial support for ICRC operations worldwide.

International Federation
    Donor Red Cross and Red Crescent Societies, either bilaterally or 
through a coordinating body known as the International Federation, 
approach the need for safe water on two levels. Emergency Response 
Units of trained individuals with specialized equipment stand ready to 
be deployed anywhere in the world to purify and distribute water until 
regular supplies are restored. Over the longer term, we support local 
Red Cross Red Crescent National Societies in rebuilding permanent water 
and sanitation infrastructure, conducting health education campaigns, 
and implementing plans for disaster preparedness and mitigation.

      RECOMMENDATIONS FOR IMPROVING ACCESS TO SAFE WATER GLOBALLY

    There are two recommendations that I would like to share with the 
committee. First, we need to make use of best industry practices. There 
are numerous examples of water, sanitation, and health education 
projects over the past decades that achieved their goals, as well as 
many lessons learned from less successful efforts. From those 
experiences, there is consensus among major organizations involved 
about what approaches work best. These agencies include the World 
Health Organization, the American Red Cross and its partners in the Red 
Cross and Red Crescent Movement, government donors like USAID, national 
governments that receive donor assistance, and various international 
and local NGOs.
    The American Red Cross believes that in order to effectively reduce 
water-related disease through improved access to safe drinking water 
and adequate sanitation, the following programming strategies should be 
adhered to. Please bear in mind that these recommendations focus on 
ways to make programs in rural areas as sustainable as possible over 
the longer term.

--Address sanitation, hygiene and health education needs along with 
        making improvements to water and sanitation facilities. 
        Improved health often depends on how water is utilized and is 
        not simply a matter of supplying more of it.
--Require the beneficiary population be involved in health promotion, 
        water system design and operation, and utilize local water 
        committees to facilitate operation and maintenance. For 
        example, in Nicaragua, health promoters and persons responsible 
        for maintaining equipment receive specific training.
--Use technologies appropriate and affordable in the local setting. For 
        example, gravity fed water systems are appropriate where 
        reliable power systems may not be available, such as in 
        northwest Kenya's Kerio Valley where the American Red Cross is 
        currently working.
--Utilize to the extent possible locally manufactured or procured 
        equipment and construction materials as well as local expertise 
        and labor. For example, handpumps used to draw water from wells 
        routinely require spare parts and it is necessary that these be 
        readily available locally.
--Work in collaboration with local government agencies, being cognizant 
        of local legal frameworks. In Azerbaijan for instance, water 
        rights were secured through the local government prior to 
        drilling new boreholes.
--Account for local gender and local cultural practices. For example, 
        better access to safe drinking water in Papua New Guinea meant 
        installing a piped system to bring water into the village. This 
        drastically reduced the distance women had to carry water, 
        allowing them greater time to spend toward preventive health 
        measures for children.
    Second, just as the Committee is doing today by holding this 
oversight hearing, we need a renewed commitment to address global 
water, sanitation and health education programming. Over the past 
decades, international organizations and their local partners have 
developed their various capacities to implement assistance programs in 
the area of water and sanitation. More recently, improved evaluation 
methods are being developed to measure the actual impact of such 
programs. It is crucial that governments and the general public alike 
renew their commitment to funding health education and safe drinking 
water programs around the world with the aim of saving lives and 
improving health.
    An independent organization, the American Red Cross relies on the 
generosity of the American public to support our international disaster 
response, including water supply programs. As the recognized 
representative of the International Red Cross and Red Crescent Movement 
in the United States, the American Red Cross stands ready to work with 
the Commerce Committee, State Department and others, to address the 
needs of those around the world in gaining access to safe drinking 
water through our unique global network.

                               CONCLUSION

    Mr. Chairman, I thank you for the opportunity to share the American 
Red Cross experiences and efforts to address the issue of global safe 
drinking water supplies. We look forward to working with Congress and 
the new Administration to expand our efforts in this vital area of 
global public health.

    Chairman Bliley. Thank you, Mr. Jones.
    We will now hear from Dr. Anwarul Huq, I hope I got that 
right, Research Associate Professor, Center of Marine 
Biotechnology, University of Maryland Biotechnology Institute. 
Dr. Huq.

                    STATEMENT OF ANWARUL HUQ

    Mr. Huq. Mr. Chairman and members of the committee, my name 
is Anwarul Huq, and I am an associate professor at the 
University of Maryland Biotech Institute.
    Chairman Bliley. Would you pull the microphone as close to 
you as you can. We have a very antiquated sound system in here.
    Mr. Huq. Is it better now?
    Chairman Bliley. That is better.
    Mr. Huq. Let me commend you on holding a hearing on the 
important topic of safe drinking water, a concern for millions 
of people throughout the world. About 25 years ago, at the 
beginning of my career, when I was working as a research 
officer at the International Center for Biodisease Research in 
Bangladesh, 1 day a middle-aged man arrived at the hospital 
with a young girl in his arms. The girl was nearly dead from 
drinking contaminated water, and I could read from the face of 
the doctor attending the patient that there was very little 
hope that the girl was going to survive. After 12 hours, she 
was able to drink fluid and all the hydration solution 
developed at that center to treat cholera patients. After 24 
hours, the girl, that little girl, although extremely weak, was 
released from the hospital, and she was allowed to go home. Had 
there been no help, instead of walking out of the hospital, 
someone would have carried her into the graveyard. That day I 
vowed that if I could save even one life, I would consider my 
own life well spent.
    Unlike smallpox, water-borne diseases cannot be eradicated 
because many of the pathogens are naturally occurring in 
aquatic environments, notably Vibrio cholerae, the causative 
agent of cholera. Intervention is, however, possible by 
changing the way water is used through general education and 
increased public awareness and, most importantly, widespread 
initiatives to protect water from undesired contamination.
    According to a report published by the World Health 
Organization, many developed countries have water sources that 
are continuing to deteriorate in quality. For example, cholera 
has appeared in the former Soviet Union. After a century 
without cholera epidemics in South America, Peru and other 
neighboring countries, several other neighboring countries saw 
an outbreak of cholera in 1992, believed to have been caused by 
unboiled or untreated drinking water. In Bangladesh, the 
majority of the population in villages still depend on 
untreated surface water for household consumption for reasons 
of taste and convenience. In a country like Bangladesh where 
fuel wood is very short in supply, boiling water, effective as 
it is, is not done because of the lack of fuel wood.
    In my own research, we found that four layers of sari cloth 
of the commonest type used by Bangladeshi villagers, 99 percent 
of cholera-causing cells attached to zooplankton can be 
filtered from drinking water. The sari material used to filter 
contaminated water can be washed and air dried for reuse.
    Effective, low-cost and culturally acceptable measures to 
improve clean water are having a dramatic impact: The project 
under way in Bangladesh involving over 60,000 people funded by 
the National Institutes of Nursing Research of the National 
Institutes of Health to treat workers, educate the villagers on 
the importance of simple filtration, a method that we developed 
at the University of Maryland, demonstrate how to use the 
filter effectively and how to decontaminate the filter after 
each use. This training is accomplished by one-on-one family 
visits, as well as the use of colorful posters, community 
discussions, and town hall meetings.
    Increasingly people are using bottled water here and in 
other countries. Sadly, there are not that many fortunate 
people in the world who have access to or can afford to buy 
bottled water in their daily lives.
    In conclusion, safe drinking water is a global necessity. 
In the years ahead, both developed and developing countries 
will consider their supply of drinking water as valuable and 
vital as we view petroleum resources on a global scale today.
    Thank you again for inviting me to testify before this 
committee, and I would be happy to respond to any questions you 
might have.
    [The prepared statement of Anwarul Huq follows:]
Prepared Statement of Anwarul Huq, Research Associate Professor, Center 
of Marine Biotechnology, University of Maryland Biotechnology Institute
    At a time when man has stepped foot on the moon and our country is 
considering sending landing craft to Mars and other planets, it is 
tragic that thousands of people die each day here on earth from 
waterborne diseases like cholera, that are preventable. About 25 years 
ago at the beginning of my career when I was working as research 
officer at the International Center for Diarrhoeal Disease Research, 
Bangladesh (ICDDR,B), one evening after spending 18 hours doing field 
work in the ICDDR,B Field Hospital, I was relaxing over coffee when a 
middle aged man arrived at the hospital with a young girl in his arms. 
The girl, 9 or 10 years old, was nearly dead with sunken eyes and 
hardly breathing. The doctors attended the patient immediately. I could 
read from the face of the doctor that there was very little hope that 
the girl would survive, but the doctor worked desperately hard. After 
about 4 hours the vital signs of the little girl showed that she was 
responding. After 12 hours, she was able to drink fluids, an oral 
rehydration solution developed at the ICDDR,B for cholera patients. 
After 24 hours she was released from the hospital. The little girl was 
extremely weak as she walked out of the hospital. Had there been no 
help, such as that available at the ICDDR,B field hospital, instead of 
walking out of the hospital, some one would had carried this little 
girl to a grave yard. That day, I vowed that if I could save even one 
life, I would consider my own life well spent.
    The impact of population growth worldwide has resulted in an 
increased incidence of waterborne disease and diseases such as cholera 
pose a real threat to public health, unless appropriate intervention 
measures are initiated locally, regionally, and globally. It is 
estimated that the volume of available renewable freshwater will 
decrease by \1/3\ for each human being in the year 2025, compared to 
what the world population had available per person in 1955. Unlike 
smallpox, waterborne diseases cannot be eradicated, because many of the 
pathogens are naturally occurring in aquatic environments, notably, 
Vibrio cholerae, the causative agents of cholera. However, intervention 
is possible by changing the way water is used, through general 
education, and increased public awareness and, most importantly, 
widespread initiatives to protect water from undesired contamination. 
Because of industrialization, most developed countries tend to have 
problems of chemical pollution, whereas most of the developing 
countries suffer from pollution with domestic wastes because of the 
lack of resources for waste management. In addition, the emergence of 
pathogens resistant to chemicals used in water treatment and 
disinfectant is a concern for those responsible for management of 
clean, safe drinking water supplies.
    Waterborne disease outbreaks are on the rise globally, both in 
frequency and severity. Reports published by the United Nations 
Children's Fund in 1993 demonstrated a direct correlation between safe 
drinking water and death of children under 5 years of age. Another 
report by the World Health Organization (WHO), published in 1992, 
estimated that diarrheal disease traceable to water contamination kill 
two million children each year. Although mortality from many of the 
waterborne infections is generally low, the socio-economic impact in 
both developed and developing countries is severe. In 1995, a 
colloquium was held on ``A Global Decline in the Microbiological Safety 
of Water: A call for Action'', organized by the American Academy of 
Microbiology. Five years later, the Academy sponsored another 
colloquium to re-evaluate the microbiological quality of drinking 
water. It found that there is a need for improved and more powerful 
molecular biology-based methods for detection of human pathogens in 
water supplies and for a public health risk assessment, including 
bacteria, viruses, and other organisms, such as toxic algae.
    Rapid population growth, on one hand, is considered to have 
contributed to the increase of bacterial contamination and 
deteriorating public health conditions, but urbanization, on the other 
hand, has provided treated, safe drinking water for millions of people. 
At the beginning of the 20th century, typhoid fever was an emerging 
disease in Europe and the United States. Fortunately, the disease was 
controlled successfully in those communities that were provided with 
filtered and chlorine-treated water. Nonetheless, when the 
infrastructure deteriorates or is stressed to meet the demand of 
increased population growth, outbreaks of waterborne diseases are still 
likely to occur. According to a report published by the World Health 
Organization in 1992, many developing countries have water sources that 
are continuing to deteriorate in quality. For example, cholera has 
reappeared in the former Soviet Union and the reappearance and 
transmission of cholera, after a century without cholera epidemics, in 
Lima, Peru, and several other neighboring cities and countries during 
1992 is believed to have been caused by unboiled or untreated water 
serving as drinking water. In fact, in both developed and developing 
countries, ground water increasingly is becoming contaminated and, in 
many cases is being depleted, since the renewal rate is declining 
directly, or indirectly with population growth.
    Although the microbiological quality of water is usually measured 
by monitoring for the presence of certain pathogenic bacterial species, 
the problem is not limited to bacteria but includes parasites and 
viruses. Major bacterial problems in the United States in recent years 
are E. coli 0157:H7 and Enterococcus. Both are intestinal bacteria that 
can cause flu-like symptoms, as well as enteric infections. Earlier 
this year, over 1,000 people were infected with E. coli 0157:H7 in 
Walkerton, Ontario, Canada, and 90 individuals were hospitalized. At 
least 10 died and an additional nine deaths were investigated. In the 
summer of 1998, an outbreak caused by the same organism took place in a 
theme park, traced to water, in suburban Atlanta, killing two. In June, 
1998, 367 people became ill with nausea, diarrhea, and vomiting and 
stomach pain, after consuming raw oysters. Although hardly anybody in 
the United States will drink untreated water, nevertheless, if natural 
water is contaminated, people may become infected indirectly, as in the 
case of raw oysters taken from contaminated waters. Cryptosporidium has 
caused massive waterborne epidemics worldwide and is also recognized as 
the most important drinking water parasitic contaminant in the United 
States. The largest outbreak of cryptosporidiosis occurred in 1993, 
when 400,000 people in Milwaukee, Wisconsin, were infected with 
Cryptosporidium. Because of this and other outbreaks of waterborne 
diseases, confidence in the purity and safety of our public drinking 
water supply has gone down in the United States.
    Numerous epidemics of cholera occurred in Europe and in the United 
States in the 1800s. Tens of thousands of people died, until safe 
drinking water became available. Between 1832 and 1875, cholera spread 
rapidly and caused catastrophic epidemics in the United States. 
Although no longer an epidemic threat in the United States, cholera and 
other diarrheal diseases remain major killers of children globally, 
especially in developing countries. According to a World Health 
Organization report, there were over 293,000 cases of cholera, reported 
worldwide in 1998. One must remember that these are only the reported 
cases. More than 14,000 deaths, many of them children were reported to 
have occurred in Rwandan refugee camps in 1994. It has long been known 
that cholera is a waterborne disease, and the infectious agent, a 
bacterium called Vibrio cholerae, is transmitted via water. Until 1992, 
both North and South America were free of cholera epidemics for almost 
a century. Unfortunately, after that massive epidemic in Peru and 
involving almost all the countries of Latin America, cholera has become 
pandemic in several countries in South America, killing over 8,000 
people since 1992. It should be noted that this bacterium occurs 
naturally in the aquatic environment. In an ongoing study in our 
laboratory at the University of Maryland, cholera bacteria can be 
easily detected in Chesapeake Bay. Although toxigenic strains have been 
detected in the water of the Gulf Coast sporadically since 1978, so 
far, nearly all of the Chesapeake Bay isolates have been proven to be 
nontoxigenic. Those sporadic cases of cholera that have occurred in the 
United States since 1973, except for a few, were related to travel to 
cholera-endemic countries or consumption of local or imported seafood. 
In addition, we have demonstrated that professional divers often have 
elevated antibody to Vibrio cholerae bacteria, most probably a result 
of exposure to cholera bacteria in the fresh and estuarine water where 
they dive, including a fresh water reservoir in Maryland, where they 
also have worked. The point is that there is always a risk, although 
very small, for cholera to occur in the United States.
    One very important aspect of determining bacteriologically safe 
drinking water is to take into account the viable but nonculturable 
(VBNC) phenomenon in bacteria, first reported from our laboratory at 
the University of Maryland. In this state, bacteria remain viable, 
maintaining virulence, but not growing on conventional bacteriological 
culture media. They are essentially dormant or in a survival stage, 
when environmental conditions do not lend themselves to active growth 
of the bacteria, such as cold weather or less nutrient being available. 
Therefore, these bacteria can easily be missed if appropriate methods 
are not used for detection, namely molecular biology or biotechnology 
methods for detection. It has been demonstrated that chlorine in the 
form of sodium hypoclorite (Clorox), up to 2.5%, has very little effect 
in killing V. cholerae when the bacteria are attached to plankton. In 
fact, in pure culture, i.e., without plankton present, large numbers of 
free living cells of V. cholerae can enter the VBNC, or dormant state, 
when exposed to disinfectant. Thus, re-evaluation of disinfectants, 
including chlorine, for treating drinking water supplies, particularly 
when filtration systems are not effective at the highest level, such as 
after very heavy storms and before chemical treatment.
    Surface water has been implicated in the transmission of cholera 
and other waterborne diseases. The association of vibrios, particularly 
V. cholerae with plankton, specifically zooplankton has been 
established from extensive studies carried out in our laboratory during 
the past 25 years. Recently, the presence of the V. cholerae bacteria 
in cargo ship ballast water has been reported, suggesting international 
dissemination of V. cholerae via aquatic organisms, namely plankton, in 
the ballast water that is discharged in harbors remote from the 
original source of the ballast water. Our work on ballast water 
suggests that V. cholerae is present in, and on copepods (plankton) in 
the ballast water of ships entering Chesapeake Bay from ports of origin 
elsewhere in the world. Copepods, a dominant group of the zooplankton 
community in riverine and brackish water, have a characteristic 
seasonal distribution in size and species and can carry a large number 
of V. cholerae, enough to cause cholera even if only 1-10 copepods are 
ingested via drinking water.
    Filtering water at the time of collection, and just before 
drinking, has been successful in removing cyclopes, a planktonic stage 
of the guinea worm, which causes dracunculiasis, a serious a life-
threatening and common disease in many countries of Africa. The worm is 
removed using a nylon net to filter out the plankton which carry the 
intermediate stage of the worm. Filtration is so successful that it is 
now recommended as an effective method for preventing dracunculiasis. 
By drinking water with cyclopes (plankton) in the water, a person 
serves as the active host in whom the intermediate stage develops to 
the adult migrating worm. Although boiling water prior to drinking will 
kill the plankton, cyclopes, and, therefore, the guinea worm larvae, it 
is a time-consuming procedure and expensive as well. In a country like 
Bangladesh, where fuel wood is in very short supply, boiling water, an 
effective practice as it is, is not done because of the lack of fuel 
wood. Furthermore, boiling water is not socially acceptable in most 
rural villages of Africa, a situation that also prevails in Bangladesh.
    In Bangladesh, a majority of the population in the villages still 
depends on untreated surface water for household consumption. Surface 
water taken from ponds and rivers is a preferred source of drinking 
water, for reasons of taste, convenience, or a local belief that 
``quality'' water is ``natural,'' i.e., not chemically treated. A 
family and neighborhood study of cholera transmission demonstrated that 
those who used water from sources known to contain cholera bacteria, 
for cooking, bathing, or washing, but used water for drinking that did 
not show the presence of bacteria by standard culture methods, had the 
same rate of infection as those who used V. cholerae 01 culture 
positive water for drinking. Once the index case is reported, it is 
most likely that further spread in the family takes place via water or 
other means, such as direct contact, which may not be prevented even if 
the water brought into the house is free of V. cholerae 01. Moreover, 
during severe flooding, which occurs almost every year, there are some 
areas of Bangladesh that experience reduction to conditions of mere 
survival, i.e., even the barest necessities become difficult to obtain 
and building fires to boil water is simply not possible.
    Therefore, we proposed an intervention at the index case level, 
which would help prevent the release of large numbers of bacteria into 
the environment when sanitary latrines are not available. The 
importance of safe water for all household purposes, i.e., cooking, 
bathing, washing, and drinking cannot be over emphasized. When 
consumption of surface water cannot be avoided, particularly during 
flooding or other natural disasters which occur every year in 
Bangladesh, a simple method that is effective in reducing the number of 
V. cholerae will be very useful. In addition, the recently recognized 
problem of very high concentrations of arsenic present in Bangladesh 
ground water, i.e., in shallow tube well water, forced large numbers of 
people to avoid ground water, and switch back to drinking water from 
rivers and ponds, i.e., surface water. Thus, a simple filtration method 
that we devised, using cloth filters, may become even more important in 
protecting economically destitute villagers from becoming ill from 
contaminated water.
    Based on our accumulated work on cholera over twenty-five years, we 
hypothesized that a simple and inexpensive filtration method to sieve 
out plankton colonized with V. cholerae should curb, or at least 
reduce, cholera epidemics. This presumes filtration will reduce the 
numbers of V. cholerae per volume of drinking water, whether from 
ponds, rivers or other natural water supplies, to numbers below a 
potentially infectious dose. Extensive experiments were conducted in 
our laboratory at the University of Maryland and the results showed 
that V. cholerae attached to copepods can be filtered out of the water 
using sari material of a type that is readily available in nearly every 
household in villages of Bangladesh. Different kinds of sari material 
were tested, in addition to a nylon net of maximum pore size of 200 m 
(the same nylon net as used to control dracunculiasis in Africa. The 
emphasis in our study focussed on sari material, because it was our aim 
to develop a method of filtration that bore no additional cost to 
villagers for household water filtration. It was not intended to 
eliminate cholera by our method, but to reduce the number of cholera 
cases to a minimum.
    Results of experiments showed that either four layers of sari cloth 
of the commonest type used by Bangladeshi villagers, or one layer of 
nylon net, retained 99% of V. cholerae since the cells are attached to 
zooplankton. The sari material used to filter contaminated water, i.e., 
to separate out suspended particles, including copepods, can be washed 
and air-dried each time after use for repeated use. Complete drying of 
the filtering material is desirable, with four hours, or more than 24 
hours, required for drying, depending on the humidity, i.e., monsoon 
vs. non-monsoon season. From results obtained in our preliminary 
studies in Bangladesh, four hours of sun exposure or 24 hours of air 
drying in a shaded environment was most effective. The decontamination 
procedure was even more effective if the sari cloth was thoroughly 
rinsed with water before drying. However, during the monsoon in 
Bangladesh, when the humidity is ca. 100%, fully complete drying is not 
usually achieved. Considering such situations, thorough washing of each 
filter after every use is recommended, using the same river or pond 
water to remove concentrated plankton from the filter, followed by 
rinsing with filtered water and drying when possible. There is no 
hazard or risk associated with application of this method, either to 
participants or to workers carrying out the study.
    A concept of filtration acceptable to villagers is the basis of 
this project. So after demonstrating that simple filtration using 
Bangladeshi household material can reduce the number of cells of V. 
cholerae 01 (reduction of 2 logs or more in number of V. cholerae 
cells) in surface water. We are now carrying out a community-based 
study targeted toward undeserved rural populations and aimed at cholera 
intervention involving direct community participation. We have 
undertaken this project in collaboration with the International Centre 
for Diarrhoeal Disease Research, Bangladesh (ICDDR, B) and funded by 
the National Institute of Nursing Research, National Institutes of 
Health. The field trials began a year and half ago in Bangladesh. Most 
importantly, mothers of households are responsible for implementation, 
thereby, ensuring ultimate success.
    Field workers, who explain and educate the villagers and the 
importance of filtration, demonstrate how to use the filter effectively 
and how to decontaminate the filter after each use. This training is 
accomplished by one-on-one family visits, as well as through the use of 
colorful posters, community discussions, and ``town hall meetings.'' 
Those villagers using the filtration devices for six months are 
included in a follow-up survey, conducted to evaluate efficacy of the 
devices, as well as compliance in the use of the devices. The second 
phase study began last month, involving 12,000 families and 
approximately 60,000 individuals. Questionnaires, data recording, 
methods for education about filtration, and related matters from the 
first phase were carefully reviewed, with special focus on effective 
education and distribution of the filtering devices, to ensure 
successful completion of the full field trials.
    Preliminary results from the first phase of the study indicate that 
filtration reduces the number of cases of cholera significantly, when 
sari or nylon net is used to filter household water, compared to the 
number of cholera cases in the control villages. From September to 
December, 1999, the number of cholera cases was <0.5/1000 in both the 
sari and nylon net filtration groups and >1.5/1000 in the control 
group, where filtration was not done, a three-fold reduction of cholera 
cases among filter users. An important finding from the first phase of 
the study was the acceptability of filtration of household water by the 
villagers. It was found that 90% of the villagers were in compliance 
with the instructions for using the filters. Only 0.6% of the 
population were non-compliant, i.e., didn't use the filters. Of the 
remaining population, a few families switched to tube well water and 
some had migrated to other villages.
    Clearly, there is willingness among the villagers to use filtration 
as an intervention method to prevent cholera. Finally, we are excited 
and delighted by the promising results from the first phase of the 
project. Filtration, using sari cloth and/or nylon net, is effective in 
reducing the number of cholera cases, the villagers in Bangladesh are 
in excellent compliance (far better than expected), and the number of 
cholera cases for those who filter their water is significantly less 
than for those who do not filter.
    I take this opportunity to mention here that during the past couple 
of years I have been asked whether the sari filtration method can be 
useful in any other countries, employing the local material of that 
country. It is a very simple method and if a locally available material 
can fulfill the requirement, it should work. Increasingly, people are 
using bottled water. Sadly, there are not that many fortunate people in 
the world who have access to, or can afford to buy bottled water for 
their daily drinking water needs. A rural villager in Bangladesh earns 
about $2.00 per day. A day's wages may buy only one or two bottles of 
water!
    In conclusion, safe drinking water is a global necessity. In the 
years ahead, both developed and developing countries will consider the 
supply of drinking water as valuable and vital as we view petroleum 
resources on a global scale today.

    Chairman Bliley. Thank you, Dr. Huq.
    We will now hear from Mr. Peter Lockery, senior advisor of 
water sanitation, environmental health, with CARE.

                   STATEMENT OF PETER LOCKERY

    Mr. Lockery.  Mr. Chairman and members of the committee, I 
am Peter Lockery. I am senior advisor on water sanitation and 
environmental health. Thank you for the opportunity to present 
testimony this morning on behalf of CARE.
    What I will try to do in our testimony is to give a flavor 
of the international debate that is going on about water 
sanitation and environmental health. I have in my testimony 
tried to respond to what I expect are the most frequently asked 
questions.
    The first question is why is water critical to poverty 
reduction? Well, closer and more secure access to water and 
sanitation save large amounts of time and energy in collecting 
water and in finding a place to defecate. Just so my colleague 
over there does not have a monopoly on the show and tell, I 
brought along this morning a gagro from Nepal. This is a vessel 
commonly used in Nepal for collecting water, and women walk 
quite often several miles to collect all the water they need. 
Just imagine carrying that up and down hills several times a 
day.
    The other issue I mentioned in my comment was finding a 
place to defecate. Remember that 3 billion people in the world 
don't have an adequate place to defecate. They do not have 
adequate sanitation. That means for a lot of women in the 
world, they are limited to defecating at dusk or at dawn. Those 
are the only times when they feel secure and can find the 
privacy necessary.
    The second reason why water is critical to poverty 
reduction is water can be used for horticulture, household 
livestock production, and in supporting microenterprise, such 
as brickmaking and pottery. Going back to Nepal, if you go into 
the hills there, you will find water buffalo in many hill 
villages. They are not native of hill villages, they live on 
the plains, but if you can get water, people can keep them in 
the hills.
    The third reason why water is critical is in urban areas 
particularly, improved water supplies can be much cheaper than 
water vendors. Recent studies show that water vendor supplies 
cost 4 to 10 times what a pipe water supply would cost.
    Finally, improved water and sanitation reduces the burden 
of water and excreta-related diseases. Remember that 1 child 
every 10 seconds, 2 to 3 million children per year, dies from 
diarrhea.
    The second question is why are hygiene and sanitation 
important? Well, studies show that sanitation, hygiene 
promotion and water quantity have a greater impact on the 
incidence of diarrhea than water quality. In our sanitation and 
family education project in Bangladesh, we didn't provide any 
water and sanitation hardware; we simply focused on hygiene 
promotion. The results in the incidence of diarrhea, a 
reduction in the incidence of diarrhea, were dramatic.
    Finally, I make the point on this point of hygiene and 
sanitation that people want toilets for other reasons than 
health. They want them for privacy, convenience, safety, and 
dignity, rather than health, in many cases.
    The next question is how should water be managed? I think 
what is coming out now in the international consensus is at the 
lowest appropriate level, possibly by the users themselves, and 
the most important lesson that has been learned over the last 
25 years is putting people at the center and recognizing their 
right to affordable access to safe water and sanitation, and 
their right to participate in decisionmaking.
    Imagine yourself in the desert north of Timbuktu. You are 
standing next to a deep well with a group of pastoralists, 
nomadic Arabs dressed in indigo-dyed cloth. They are 
complaining because the concrete lining of the well is 
beginning to collapse. Why? Because following tradition, they 
tried to deepen the well when it dried and undermined the 
lining. The project manager has explained to the pastoralists 
what happens when they deepen the well without putting in 
additional lining, but it is too late, the damage has been 
done. You realize that the project needs to meet and discuss 
with the pastoralists before the wells are constructed so that 
issues such as location and well maintenance can be decided. 
But there is a problem here. Which pastoralists use which 
wells?
    In this society, only men and boys go to the wells. You ask 
to speak to some women, some families. You are taken to a 
typical tented camp some miles from the well. You crawl into a 
tent and spend an hour talking to a family. The man's wife does 
most of the talking. She is probably illiterate, but 
nevertheless wise and thoughtful in her responses. You learn a 
great deal about their culture and society, about their hopes 
and aspirations. You also learn that they only move camp about 
twice per year. They go north in the fall and south in the 
spring, following the grass for their animals. They use one 
group of wells in the winter and one group in the summer. So, 
yes, if they were asked, groups of families would try to manage 
the wells and prevent damage.
    My final point concerns payment. Two years ago, I was 
visiting a project in Mozambique. We were in a village, and the 
village maintenance team had removed their hand pump from the 
borehole and were carrying out repairs. There seemed to be a 
rather large number of people present for just one village 
maintenance team. I asked who these people were. My colleague 
inquired and was told there were maintenance teams from two 
adjacent villages. When the hand pump was installed, these two 
adjacent villages had contributed parts of the cost so that 
should their own hand pump fail, they would have the right to 
use the hand pump in the village we were visiting.
    These are poor subsistence farmers, and they value 
boreholes very highly, being the only source of water in the 
dry season. They were ready to invest, if given the 
opportunity, and have taken full responsibility for all normal 
operation and maintenance costs. What they needed was some 
initial assistance with the capital investment. In fact, the 
capital investment was provided by USA, because this was a 
U.S.-funded project. They needed that initial leg up, but the 
rest they were prepared to do for themselves.
    Mr. Chairman, thank you once again for the opportunity to 
appear at this hearing.
    [The prepared statement of Peter Lockery follows:]

     PREPARED STATEMENT OF PETER LOCKERY, SENIOR ADVISER ON WATER, 
             SANITATION AND ENVIRONMENTAL HEALTH CARE, CARE

    Mr. Chairman and Members of the Committee, my name is Peter 
Lockery. I am CARE's Senior Adviser on Water, Sanitation and 
Environmental Health. Thank you for the opportunity to present 
testimony this morning on behalf of CARE.
    My testimony will briefly describe CARE's history and involvement 
with the provision of drinking water and sanitation. It then reviews 
the current situation and trends in water resources and in access to 
safe drinking water and sanitation that inform CARE's programming. The 
final section examines lessons learned by responding to a series of key 
questions:

<bullet> Why is water critical to poverty reduction?
<bullet> Why are hygiene and sanitation important?
<bullet> How should water be managed?
<bullet> Who should pay for water?
<bullet> Why is gender important?
    Incorporated in the final section are brief descriptions of two 
CARE projects that serve to illustrate the points made on hygiene and 
integrated water resources management respectively.

                                  CARE

    CARE was founded in 1945 to assist in the post-war reconstruction 
of Europe. Today CARE is one of the world's largest relief and 
development organizations, with programs spanning the relief to 
development continuum of humanitarian assistance in the areas of 
agriculture and natural resources, basic and girls' education, health 
(including reproductive health, children's health, and water, 
sanitation and environmental health), and small economic activity 
development. Since 1945, CARE has helped more than one billion needy 
people in 125 countries worldwide.
    CARE has carried out water and sanitation activities for forty-
three years, reaching an estimated 10 million people in 20,000 
communities in more than 30 countries, through an investment of over 
U.S. $250 million. CARE's current portfolio includes 63 projects with 
significant water and sanitation activities. The projects are located 
in a total of 29 countries in Africa, Asia and Latin America. In FY99, 
program expenses on water and sanitation exceeded $29m, including $17m 
on emergency and rehabilitation and $12m on development. Funding comes 
from multi and bi-lateral agencies, host governments, private 
corporations and individuals, and the communities served.
    CARE's approach to water and sanitation activities reflects the 
organization's breadth of experience and expertise. During the 1960s, 
CARE focused on the provision of water supply hardware to poor rural 
communities in the developing world. As CARE experience grew over the 
next thirty years, other components such as toilet construction, 
watershed protection, and health and hygiene education were gradually 
introduced. Most recently, the emphasis has been on those elements that 
ensure sustainability and impact. Although most CARE projects are 
rural, in the 1990s CARE has undertaken an increasing number of urban 
projects. These include water supply, drainage, on-site sanitation and 
sewer construction, and solid waste management.

                      CURRENT SITUATION AND TRENDS

    ``The world faces severe and growing challenges to maintaining 
water quality and meeting the rapidly growing demand for water 
resources. New sources of water are increasingly expensive to exploit, 
limiting the potential for expansion of new water supplies. Water used 
for irrigation, the most important use of water in developing 
countries, will have to be diverted to meet the needs of urban areas 
and industry but must remain a prime engine for agricultural growth. 
Waterlogging, salinization, groundwater mining, and water pollution are 
putting increased pressure on land and water quality. Pollution of 
water from industrial waste, poorly treated sewage, and runoff of 
agricultural chemicals, combined with poor household sanitary 
conditions, is a major contributor to disease and malnutrition.'' 
<SUP>1</SUP>
---------------------------------------------------------------------------
    \1\ Rosegrant, Mark W., Water Resources in the Twenty-First 
Century: Challenges and Implications for Action; Food, Agriculture, and 
the Environment, Discussion Paper 20; IFPRI 1997
---------------------------------------------------------------------------
    Caught between growing demand for freshwater on one hand and 
limited and increasingly polluted water supplies on the other, many 
developing countries face difficult choices. Rising demands for water 
for irrigated agriculture, domestic consumption, and industry are 
forcing stiff competition over the allocation of scarce water 
resources.

Water Resources
    Although water appears to be abundant, less than 3 percent of the 
world's water is freshwater, and most of this is either in the ground 
or in the form of ice. Lakes and rivers account for only 0.014 percent 
of all water. Enough precipitation falls each year on the land surface 
of the earth to cover the United States to a depth of 15 feet or to 
fill all lakes, rivers and reservoirs fifty times over, but about two-
thirds is lost to evaporation and more than half of the remainder flows 
unused to the sea.<SUP>2</SUP> Rainfall is also highly variable; the 
same area can experience droughts one year and floods the next.
---------------------------------------------------------------------------
    \2\ Seregeldin, I., Towards Sustainable Management of Water 
Resources. The World Bank. 1995
---------------------------------------------------------------------------
    With continuing growth in global population coupled with the demand 
for rising levels of consumption associated with expanding economic 
activity, freshwater is becoming an increasingly scarce resource. In 
many countries, particularly developing countries with high levels of 
population growth and low or variable rainfall, the situation is fast 
reaching crisis proportions. The increasing effects of climate change 
are now starting to exacerbate the situation. Table 1 illustrates the 
decline in per capita availability of freshwater by region and in 
selected countries.
    A country or region will experience periodic water stress when the 
annual supply of renewable freshwater supplies fall below 1,700 m\3\ 
per person. The global average is about 7,400 m\3\ but withdrawal only 
amounts to about 9 percent or 680 m\3\ per person. This low level of 
withdrawal reflects the losses to evaporation and floods.

                                 Table 1
 Decline in per capita availability by region and in selected countries,
                           2000-2025 predicted
------------------------------------------------------------------------
                                                    Per capita water
                                                 availability (m\3\ per
            Region Example country                  person per year)
                                               -------------------------
                                                    2000         2025
------------------------------------------------------------------------
Africa........................................        4,500        2,500
Ethiopia......................................        2,400        1,000
Kenya.........................................          600          200
Morocco.......................................          900          500
South Africa..................................        1,100          800
Asia..........................................        3,400        2,300
India.........................................        1,400          800
Pakistan......................................          600          200
China.........................................        1,900        1,500
Jordan........................................          100          100
Uzbekistan....................................        2,300        1,600
Australia & Oceania...........................       75,900       61,400
Europe........................................        3,900        3,900
Russia........................................       29,000       30,600
Poland........................................        1,200        1,100
N. America....................................       15,400       12,500
Jamaica.......................................        3,000        2,200
S. America....................................       33,400       24,100
Guyana........................................      291,000      230,000
------------------------------------------------------------------------
Source: Comprehensive Assessment of the Freshwater Resources of the
  World, Stockholm Environmental Institute 1997

    Countries are often dependent on international agreements with 
neighboring countries for water since approximately 15 percent of all 
countries receive more than 50 percent of their available water from 
countries situated upstream. The potential for tension and conflict 
between nations is clear.
    Where planning and management of water resources are ineffective 
and uncoordinated, it places a major constraint on the reduction of 
poverty. Poor institutions at all levels from the state to the 
household have the greatest difficulty in establishing their claims to 
water. This exclusion needs to be addressed in the management and 
allocation of water, but political patronage frequently results in 
decisions driven more by expediency than efficiency or equity.
Drinking Water and Sanitation Coverage
    One billion poor people are excluded from their right to basic 
water services. Almost two and a half billion do not have access to 
sanitation and are forced to live in degrading and unhealthy 
environments. Three million children die each year from diarrhea 
related disease, and yet the Convention on the Rights of the Child 
(1989) is clear on a child's right to clean drinking water and freedom 
from the dangers of environmental pollution. Water is central to the 
lives of women, and yet they are almost invariably excluded from 
decisions regarding its management and allocation.
    Statistics on water and sanitation are produced by the Joint 
Monitoring Programme of the World Health Organization (WHO) and the 
United Nations Children Fund (UNICEF) based on data reported by 152 
countries. Table 2 combines the results for the 40 most populous 
countries in Africa, Asia and Latin America, and compares the 
preliminary 1999 results with the results in 1970, 1980, and 1990. 
Table 3 shows the preliminary 1999 results subdivided by region.

                                                    Table 2.
  Drinking water and sanitation coverage (%) for Africa, Asia and Latin America combined, subdivided into urban
                                              and rural (1970-1999)
----------------------------------------------------------------------------------------------------------------
                            Year                                  1970         1980         1990         1999
----------------------------------------------------------------------------------------------------------------
Urban water.................................................           65           74           82           92
Rural water.................................................           13           33           50           71
Urban sanitation............................................           54           50           67           81
Rural sanitation............................................            9           13           20           31
----------------------------------------------------------------------------------------------------------------


                                                    Table 3.
                        Drinking water and sanitation coverage subdivided by region, 1999
----------------------------------------------------------------------------------------------------------------
                                                               Percentage with access        Number unserved
                                                  Population --------------------------        (millions)
                     Region                       (millions)                           -------------------------
                                                               Safe water   Sanitation   Safe water   Sanitation
----------------------------------------------------------------------------------------------------------------
Africa.........................................          784           62           63          302          289
Latin America & Caribbean......................          519           83           74           87          137
Asia...........................................        3,683           83           46          627        2,003
Total..........................................        4,986           80           52        1,016        2,429
----------------------------------------------------------------------------------------------------------------

    Table 2 shows a pattern of steady progress over the last three 
decades, but there is still a huge task ahead because many people 
remain without services. Good progress has been made in water. In Asia, 
the percentage of the population with access to safe water has doubled 
over the last 20 years to 83 percent. In Africa, by contrast, over one 
third of the population remains without access to safe water, coverage 
rising from 45 to 62 percent since 1980.
    The figures for sanitation are worse than those for water in almost 
all regions. Sanitation coverage has increased more slowly, and the 
numbers unserved are much larger. 2 billion of the 2.4 billion people 
lacking adequate sanitation live in Asia. In India, for example, where 
major improvements have been achieved in water supply, less than 31 
percent of the population have adequate sanitation.
    Although the figures for urban areas are higher than those for 
rural areas, almost all the world's population growth in the coming 
years will be in poor urban areas in developing countries. The demand 
for urban water and sanitation will reflect the population growth and 
will be increasingly difficult to satisfy.
    Many poor urban dwellers live in informal settlements around major 
cities. They are particularly vulnerable because they normally lack 
legal title to the land they live on and have little in the way of 
community organization or political voice to demand an adequate service 
level. Existing services are often poorly maintained or inoperable: 
losses of water in excess of 50 percent are common and water may not 
reach the extremities of the piped system due to lack of pressure. 
Sewers may be blocked, damaged or non-existent and will typically 
discharge to a water course without treatment. This is the situation 
for millions of people. Ironically, they often have to pay private 
water vendors much higher prices than the price of water from the piped 
city supply.
    Coverage figures in some countries are also affected by 
contamination of drinking water with natural or man-made substances 
that can threaten health. An example attracting global attention is the 
high concentration of arsenic in groundwater in Bangladesh. This 
affects large areas of the country, with between 10 and 60 million 
estimated to be at risk.<SUP>3</SUP>
---------------------------------------------------------------------------
    \3\ British Geological Survey, Arsenic Study Bangladesh, 1999.
---------------------------------------------------------------------------
                            lessons learned
Why is water critical to poverty reduction?
    Poor people themselves consistently place lack of water as one of 
their main poverty indicators and give it top priority in their own 
visions of the future. The poor are the most vulnerable to changes in 
the availability of water resources and are the least able to cope with 
change. If there is a failure to find solutions to water resources 
management and environmental sanitation, their capacity to achieve 
long-term livelihood security, including a healthy and secure living 
environment, is substantially reduced.
    Water and sanitation services attack poverty at the household level 
in four main ways:

<bullet> Closer and more secure access to water and sanitation save 
        large amounts of time in collecting water, and in finding a 
        place to defecate.
<bullet> Water can be used for horticulture, household livestock 
        production, and in supporting micro-enterprise such as brick 
        making and pottery.
<bullet> Particularly in urban areas, improved water supplies can be 
        much cheaper than water vendors.
<bullet> Improved water and sanitation reduce the burden of water and 
        excreta-related diseases.
    Good water resources management can often provide advance warning 
of floods and promote flood preparedness to mitigate the effects of 
flooding. The poor that are forced by circumstances to live in marginal 
areas within flood plains are the direct beneficiaries. Floods are the 
most common natural disaster and cause the greatest number of deaths 
and the most damage. Flood related deaths are not simply caused by 
drowning and direct injury but also by associated diseases and famine. 
Assets including land and livestock are degraded or lost.
    Poor people also rely on the natural environment to a far greater 
extent than richer people do, so they benefit from the sustained 
availability of natural resources of all sorts, such as fish stocks.
Why are hygiene and sanitation important?
    Water-related diseases including diarrhea are the single largest 
cause of human sickness and death. Deaths from diarrheal disease have 
decreased over the last decade, but it is estimated that one child dies 
every ten seconds from this cause.<SUP>4</SUP> The water-related 
diseases that afflict the poor are mainly infectious and parasitic 
diseases. There are four main types:
---------------------------------------------------------------------------
    \4\ Esrey, S. et al. Health Benefits from Improvements in Water 
Supply and Sanitation. Technical Report No.66, Water and Sanitation For 
Health Project , Arlington, VA.

<bullet> Fecal-oral infections, which mainly cause diarrhea and include 
        cholera, typhoid and dysentery. They can be spread by 
        contaminated water or, more often, by poor hygiene. More than 
        90 percent of the health benefit of water supply stems from its 
        impact on this group.
<bullet> Skin and eye infections, including trachoma, an important 
        cause of blindness, are also associated with poor hygiene.
<bullet> Various worm infections, particularly bilharzia that is caught 
        by wading in water contaminated with excreta and infested with 
        snails.
<bullet> Diseases spread by insects such as mosquitoes that breed in 
        water.
    Improvements in water supply, sanitation and hygiene are important 
barriers to the water-related infectious and parasitic diseases. 
Research carried out by Esrey and Habicht <SUP>5</SUP>, and Esrey et al 
<SUP>6</SUP> in a range of development contexts showed that safe 
excreta disposal led to a reduction of childhood diarrhea of up to 36 
percent. Handwashing, food protection and improvements in domestic 
hygiene, brought a reduction in infant diarrhea of 33 percent. In 
contrast, improving water quality alone produced limited reductions in 
childhood diarrhea of 15-20 percent. Reductions in other diseases, such 
as bilharzia (77 percent), ascariasis (29 percent) and trachoma (27-50 
percent) are also related to better sanitation and hygiene practices. 
Only reduction in guinea worm can be totally ascribed to the quality of 
water.<SUP>7</SUP>
---------------------------------------------------------------------------
    \5\ Esrey, S., and Habicht, J., Epidemiological Evidence for Health 
Benefits from Improved Water and Sanitation in Developing Countries, 
Epidemiological Reviews, 1, 117-128, 1986.
    \6\ Esrey, S.A., Potash, J.B., and Schiff, C. Effects of Improved 
Water Supply on Ascariasis, Diarrhea, Dracunculiasis, Hookworm 
Infection, Schistosomiasis and Trachoma, Bulletin of the World Health 
Organization 69(5): 609-621. 1991
    \7\ Van Wijk,C., Murre,T., revised Esrey, S. Motivating better 
hygiene behavior: Importance for public health mechanisms of change. 
UNICEF, New York. 1995.
---------------------------------------------------------------------------
    Studies of the effects of water, sanitation, and hygiene 
interventions show that the greatest improvements are achieved when the 
interventions occur together. Besides reductions in diarrhea, there are 
improvements in nutritional status, including the reduction in the 
prevalence of stunting and wasting of children, as well as savings in 
time and energy expenditure.<SUP>8</SUP>
---------------------------------------------------------------------------
    \8\ Esrey,S.A. Sustaining Health from Water and Sanitation Systems, 
Proceedings of 21st WEDC Conference, Kampala, Uganda. 1995.
---------------------------------------------------------------------------
    Better sanitation not only reduces the risk of disease transmission 
but also provides privacy, convenience, safety and dignity. Many 
people, particularly women, are willing to pay for improvements in 
sanitation for these reasons rather than health. Access to a toilet at 
home reduces women's and girls' vulnerability, while the availability 
of toilets at school can be a strong factor in encouraging girls to 
attend.
How should water be managed?
    ``As populations grow and water use per person rises, demand for 
freshwater is soaring. Yet the supply of freshwater is finite and 
threatened by pollution. To avoid a crisis, many countries must 
conserve water, pollute less, manage supply and demand, and slow 
population growth.'' <SUP>9</SUP>
---------------------------------------------------------------------------
    \9\ Hinrichsen, D., Robey,B., and Upadhyay, U.D. Solutions for a 
Water-Short World, Population Reports, Series M, No. 14. John Hopkins 
University School of Public Health, Population Information Program, 
September 1998.
---------------------------------------------------------------------------
    Conservation and management of freshwater supplies in the face of 
growing demand from population growth, irrigated agriculture, 
industries and cities will require coordinated responses to problems at 
local, national, and international levels.
    Local initiatives show that water can be used more efficiently. 
When communities and municipalities manage their freshwater resources, 
they also manage other natural resources better and improve sanitation. 
This is because freshwater resource management requires soil 
conservation, forestry management, and control of pollution from 
excreta, agricultural runoff, industrial effluent and solid waste. At 
the national and international levels, especially in water-short 
regions with dense populations, adopting a watershed or river basin 
management perspective is a needed alternative to uncoordinated water-
management policies by separate jurisdictions.
    This approach, known as integrated water resources management 
(IWRM) has been advocated widely as a means to incorporate the multiple 
competing and conflicting uses of water resources.
    AGUA demonstrates another aspect of water management and the most 
important lesson learned over the last 25 years. The importance of 
putting people at the center and recognizing their right to affordable 
access to safe water and sanitation and to participate in decision-
making. The rights, responsibilities and roles of individual households 
and communities need to be defined within an institutional framework 
for participatory planning and management. There need to be strategies 
for increasing awareness and technical, managerial and administrative 
capacity at community and local government levels. Particular attention 
should be paid to the needs, roles and skills of women and indigenous 
communities as critical actors in safeguarding and monitoring water 
resources.

Who should pay for water?
    How to finance water and sanitation services has been the subject 
of much debate over the last decade. Many governments have provided 
these basic services, bearing both the capital and the operating costs 
and charging little or nothing to the users. We have learned from world 
wide experience that services provided freely or at very low cost are 
not respected or conserved. Resources for proper operation and 
maintenance are often lacking, and there is insufficient funding for 
further capital investment. This approach can be summed up as ``free 
service means no service'' <SUP>10</SUP>. These concerns, together with 
concerns over efficient allocation, have led to the recognition of 
water as an economic good.
---------------------------------------------------------------------------
    \10\ Water Supply and Sanitation Collaborative Council. Vision 21: 
A Shared Vision for Hygiene, Sanitation and Water Supply and A 
Framework for Action. Geneva. 2000
---------------------------------------------------------------------------
    Putting people at the center implies that a dialogue must be 
started with users and communities at the initial stages of projects, 
on levels of service, tariffs, revenue collection and administration of 
services. Services with their associated costs are developed to meet 
local conditions and user demand. Increasingly the evidence is that the 
demand-responsive approach leads to better recovery of services and 
more sustainable services. Consultations vary in complexity from small 
villages to large cities but follow the same principle of responding to 
demand.
    Tariff structures are designed to ensure equity and to avoid the 
rich benefiting at the expense of the poor. In the case of a regular 
service, experience shows that recovering full operating costs and part 
of the capital costs from poor people is often possible (because piped 
water is normally cheaper and more convenient than water purchased from 
a private vendor). In some cases a stepped tariff system may need to be 
applied, so that subsidies can be generated for those who cannot afford 
regular tariffs.
    At the current level of investment in drinking water supply and 
sanitation, universal coverage would be possible in 25 years but given 
rich people's power and ability to attract funds to satisfy their 
higher water demands, some experts predict that it may take up to 50 
years <SUP>11</SUP>. Economic and legislative instruments can focus 
funds on the unserved and underserved, but efficient and effective 
regulation, cost recovery, and monitoring are required to ensure 
optimal application of these instruments.
---------------------------------------------------------------------------
    \11\ Department for International Development, UK. Addressing the 
Water Crisis--Healthier and More Productive Lives for Poor People, 
Consultation Document, March 2000.
---------------------------------------------------------------------------

Why is gender important ?
    Women have not been adequately involved in the decision-making and 
planning of water and sanitation programs. This has undermined the 
success of many programs. Women are frequently the main water carriers 
and users. They are usually responsible for and influential over the 
health of their children and families although they are not usually 
expected to perform the role of decision-making at community level. It 
should also be realized that the women in a community are not a 
homogeneous group. For example, single women may have different 
priorities to women with dependants or partners. The consideration 
about gender is not just about discrimination against women. It refers 
to the fact that men and women have different roles in society, and 
that this frequently gives rise to different needs and priorities. 
Without understanding the roles played by these different groups, or 
the barriers to their participation in certain activities, incorrect 
assumptions will be made by project planners.

    Chairman Bliley. Thank you.
    We will now hear from Ms. Adrianna Quintero, project 
attorney for public health, Natural Resources Defense Council. 
Ms. Quintero.

                STATEMENT OF ADRIANNA I. QUINTERO

    Ms. Quintero. Thank you, Mr. Chairman. Good morning. My 
name is Adrianna Quintero, and I do represent the Natural 
Resources Defense Council. We appreciate your calling this 
meeting. We are a nonprofit, public interest organization 
working on environmental issues and public health issues across 
the country and beginning to work around the world. With over 
400,000 members nationwide, we look forward to the opportunity 
of adding and contributing to the solutions to the need for 
safe drinking water.
    For humans everywhere, water means life. Water gives life, 
and too often, through droughts, floods and disease, takes it 
away. Inadequate sanitation, lack of access to clean sources, 
and poor or no water treatment in rural and urban-perimeter 
areas have resulted in a worldwide public health crisis. I need 
not repeat some of the figures that we are all familiar with, 
but they are, in fact, staggering and startling. Something must 
be done before this does become a political crisis.
    Most unfortunate are the children in the developing world 
and those who have no voice here in Washington, or even in 
their own nations' capitals. It is them who we have to think of 
in making our decisions. The problem, however, affects us all. 
In urban and surrounding areas worldwide, millions are forced 
to subsist on drinking water contaminated with sewage, arsenic, 
pesticides, or chemicals released from industrial plants. Large 
cities in many nations regularly ration their water due to the 
limited access to potable drinking water sources and an aging 
infrastructure. Even here in the United States, where 
thankfully our problems are nowhere near those in the 
developing world, much of our Nation's drinking water 
infrastructure is also aging and outdated, and many of our 
drinking water sources are contaminated. In fact, daily, many 
of our surface water and groundwater sources are being 
contaminated by the inappropriate use of pesticides and 
chemicals which have not been adequately tested, despite this 
committee's, Mr. Chairman, great efforts on the Food Quality 
Protection Act and the Safe Drinking Water Act.
    The Safe Drinking Water Act of 1996, which, Mr. Chairman, 
was instrumental, brought the need for safe drinking water to 
the forefront. The problem is this issue is still not in one of 
the top rungs of the international and political agendas. It 
needs to be an integral part of our political dialog.
    There are solutions. Through increased coordination through 
government and nongovernmental organizations, the U.S. 
leadership, and through providing additional congressional 
support and guidance and funding for agencies who work to 
improve this problem, the need for global drinking water can 
soon begin to improve. Over time we will save millions of 
children's lives.
    Additionally, ironically, as we talk about the need for 
safe drinking water around the world, as Mr. Brown mentioned, 
Congress is currently voting to extend the statutory deadline 
set by the Safe Drinking Water Act for updating the U.S. 
arsenic standard. The National Academy of Sciences does 
continue to say that this is a public health need and that we 
need to update the standards set back in 1942 when we had no 
knowledge that arsenic could cause cancer. The EPA, however, 
has repeatedly failed to meet imposed deadlines to update the 
standard and continues to seek delays, despite the fact that 
our standard is five times higher than the World Health 
Organization's and the standard in many developing nations 
worldwide. Further delay will only continue to put our 
population at risk.
    At the current 50-parts-per-billion standard, the National 
Academy estimates that 1 out of 100 people are at risk of 
getting cancer. This is an unacceptable risk and well over the 
1 in 10,000 factor for cancer that EPA normally assigns to 
toxins and contaminants.
    The world looks to us as a role model, yet here we have 
fallen far behind the curve in protecting our citizens from the 
risks of arsenic. Any further delay sends the wrong message to 
our citizens and the world and poses a significant health risk 
to tens of millions of Americans.
    The problem, of course, is much worse globally. With 
millions of people in the midst of what has been termed the 
largest mass chemical poisoning by drinking arsenic-laced well 
water, primarily concentrated in Bangladesh, China, India, 
Taiwan, and parts of South America, this extreme arsenic 
poisoning is due to the use of well water that contains what is 
apparently naturally occurring arsenic. This has caused an 
epidemic of skin lesions, vascular and cardiac problems, and 
widespread bladder, lung and skin cancer. We cannot wait for 
further evidence. The problem is there, and something must be 
done. There are solutions even to this tremendous problem. 
Tapping new, clean wells can often lead to great successes.
    Microbial contamination, of course, is one of the greatest 
problems worldwide, and as we have discussed, any type of 
improvement on treating water for microbial contaminants can 
save millions of lives.
    Problems, nevertheless, are there and must be addressed. We 
are all familiar with the image of the child suffering the 
painful effects of dehydration due to drinking contaminated 
drinking water. Dehydration, which is generally the result of 
diarrhea and dysentery due to Giardia, Cryptosporidium, cholera 
and typhoid, often leads to death for too many children. We 
must begin also by realizing that this type of contamination is 
not a problem exclusive to foreign shores. Developed nations 
like the United States also experience periodic outbreaks, such 
as the Cryptosporidium outbreak in Milwaukee, Wisconsin, and 
several scares that we have had here in the DC area. Most 
recently in Canada as well, the Walkerton, Ontario, tragedy 
also provided a wakeup call to many for the risk of 
contamination.
    Even here, only recently have we imposed stricter standards 
through the Safe Drinking Water Act to address the risk of 
Cryptosporidium and other microbes in tap water. Nine out of 
ten large U.S. water systems, including New York and San 
Francisco, are still using water treatment technologies that 
date from World War I and are not filtering their water.
    In addition, we must consider the fact that while chlorine 
has saved many lives, it is also ineffective against many 
parasites and many types of infectious disease. Additionally, 
recent toxicological studies have found evidence of potential 
adverse reproductive effects from chlorination by-products. 
Studies of pregnant women drinking chlorinated water and animal 
studies have shown that this may cause certain birth defects, 
spontaneous abortion, low birth weight and other effects. We 
must consider this a real risk and look to alternatives such as 
ozonation combined with granular activated carbon, membrane 
filtration, or disinfection through ultraviolet light.
    What is more, in working in the developing nations, we must 
not limit ourselves to simply providing chlorination as a 
solution. We must look to small-scale UV light systems and 
other types of simple filtration that acknowledge the need for 
chlorine removal.
    NRDC commends the committee for focusing on this crucial 
issue. The United States must assume a leadership role in 
addressing the need for global safe drinking water so that we 
may take these plans out of the meeting room and put them in 
action. The solutions are available and workable. However, the 
global community must recognize that this is a problem and must 
make a concerted effort toward solving this problem.
    Awareness of the global need and implications of failing to 
act must also be brought to the forefront. As the chairman 
mentioned earlier, there is the risk of having many of these 
crops, which are grown with contaminated water and with 
pesticides that are no longer allowed to be used here in the 
United States, are being brought into our shores. This is an 
era of globalization, and we must realize that these risks are, 
in fact, very, very real.
    Congressional leadership can also help bypass the 
traditional and somewhat inefficient aid mechanisms.
    In conclusion, NRDC thanks the committee for opening the 
dialog on the need for safe global drinking water. We must 
begin at home, educate our people on this need, and educate 
others worldwide on the need to protect our existing sources 
and to provide clean drinking water for all.
    We look forward to working with Congress and the new 
administration. Thank you for your time.
    [The prepared statement of Adrianna I. Quintero follows:]

 PREPARED STATEMENT OF ADRIANNA I. QUINTERO, PROJECT ATTORNEY, NATURAL 
                       RESOURCES DEFENSE COUNCIL

                              INTRODUCTION

    Good morning, my name is Adrianna Quintero, project attorney for 
the Natural Resources Defense Council (NRDC), a national non-profit 
public interest organization dedicated to protecting public health and 
the environment with over 400,000 members nationwide. We appreciate the 
opportunity to testify today on the global need for safe drinking 
water.
    For humans everywhere water means life. Water gives life and often, 
through droughts and floods, takes it away. For many people in the 
world today, however, it is water they drink that too often brings 
death and disease. Inadequate sanitation, lack of access to clean water 
sources and poor or no water treatment in rural and urban-perimeter 
communities has resulted in a worldwide public health crisis.
    One out of every four people on earth (1.2 billion) cannot drink 
water without risk of disease or death. Every year approximately 4.6 to 
6 million people or more will die from diarrhea and dysentery, 
generally from waterborne disease-carrying organisms. Approximately 
12,600 or more children will die each day. According to the United 
Nations, ``given current trends, as much as two-thirds of the world 
population in 2025 may be subject to high water stress.'' The 
devastation most heavily affects children in the developing world who 
often have no voice in Washington or world capitals.
    The problem affects us all. In urban and surrounding areas 
worldwide, millions are forced to subsist on drinking water 
contaminated with sewage, arsenic, pesticides, or chemicals released 
from industrial plants. Large cities in many nations must regularly 
ration their water due to the limited access to potable sources and 
aging distribution systems. Even here in the United States, while 
thankfully our water generally is safer than that in many developing 
nations, much of the nation's drinking water infrastructure is also 
aging and outdated and many of our drinking water sources are 
contaminated.
    The Safe Drinking Water Act of 1996 brought the need for safe 
drinking water to the forefront and many in this Committee were 
instrumental in its passing. The issue, however, has not made it to the 
top rung on the national or international political agenda. We must 
make global drinking water an issue in the international political 
dialogue.
    The problem is huge, but there are solutions. The increased 
coordination of governments and non-governmental organizations, US 
leadership and additional congressional support and funding for 
agencies working to improve global water quality and availability can, 
over time, save millions of children's lives.

The Problems Affect Us on our Shores and Around the World
    Ironically, as we talk about the tragic state of safe water around 
the world, Congress is voting to extend the statutory deadline set by 
the Safe Drinking Water Act Amendments of 1996 for updating the U.S. 
arsenic standard. A 1999 report by the National Academy of Sciences 
(NAS) determined that arsenic in drinking water causes bladder, lung 
and skin cancer, and may cause kidney and liver cancer. The study also 
found that arsenic harms the central and peripheral nervous systems, 
heart and blood vessels, and causes serious skin problems, including 
pre-cancerous lesions and pigmentation changes. In addition, the NAS 
report and peer-reviewed animal studies have found that arsenic also 
may cause birth defects and reproductive problems.
    The need for updating the standard, however, is long overdue. As it 
stands, the U.S. standard for arsenic has not been updated since 1942, 
before health officials knew that arsenic causes cancer. EPA has 
repeatedly failed to meet court-imposed deadlines to update the 
standard. This 58 year-old standard is currently five times higher than 
the standard set by the World Health Organization and the standard in 
many other countries. It must be reduced now. Further delay will only 
continue to put the US population at risk. At the current level of 50 
parts per billion, the NAS estimates that one out of 100 people are 
risk getting cancer, an unacceptable risk, well over the one-in-10,000 
risk factor for cancer that EPA normally assigns for toxins and 
contaminants. The World looks to the U.S. for guidance. Here we have 
fallen well behind the curve in protecting our citizens from the risks 
of arsenic. Any further delay sends the wrong message to our citizens 
and the world, and poses significant health risks to tens of millions 
of Americans.
    The problem is much worse globally with millions of people in the 
midst of what has been termed the largest mass chemical poisoning by 
drinking arsenic-laced well water. Primarily concentrated in 
Bangladesh, India, China, Taiwan, and parts of South America, this 
extreme arsenic poisoning is due to the use of well water that contains 
what is apparently naturally-occurring arsenic. The arsenic has caused 
an epidemic of skin lesions, vascular and cardiac problems, and 
widespread bladder, lung, and skin cancer in the affected regions. 
While the problem of arsenic contamination can be somewhat more 
difficult to solve than microbial contamination, problems can be 
avoided by tapping different cleaner water sources, or the use of well-
demonstrated on-site treatment.

Microbial Contamination
    More than any other medical or public health advancement, public 
health experts attribute more lives saved over the past 150 years in 
the United States and other developed nations to the provision of 
potable, treated water, bar none. Problems nevertheless persist. We are 
all familiar with the image of the child suffering the painful effects 
of dehydration due to drinking contaminated water. This microbial 
contamination from parasites like E. Coli, Giardia, Cryptosporidium, 
Shigella, V. Cholera, Typhoid, and other disease-carrying organisms 
lead to an early death for too many children worldwide. The United 
Kingdom Institute of Child Health estimates that in developing 
countries the average child may suffer from diarrhea ten times per year 
and one in ten will die before the age of five from diarrhea and 
dehydration.
    We must begin by realizing that microbial contamination is not a 
problem exclusive to foreign shores. Developed nations themselves 
experience periodic outbreaks of microbial disease, such as the 
Cryptosporidium outbreak in Milwaukee, Wisconsin, USA in 1993 that 
sickened over 400,000 citizens and killed over 100, or the more recent 
New York State county fair where numerous children where sickened. An 
unofficial estimate by the Centers for Disease Control (CDC) estimates 
that waterborne disease causes 940,000 illnesses and 900 deaths per 
year in the U.S. In Canada, the Walkerton, Ontario tragedy earlier this 
year has provided Canadians with a new awareness of the vital role 
treatment facilities have for public health.
    Even here in the US where the legislative and regulatory structure 
provides us with a set of enforceable standards, only recently have 
stricter measures to address Cryptosporidium and other microbes in tap 
water been proposed. Nine out of ten big US water systems is still 
using water treatment technologies that date from World War I. In 
addition, while we have saved many lives through basic disinfection, 
research now shows that our traditional methods of simple chlorination, 
can pose substantial risks, including cancer risks. Chlorine is 
ineffective against many parasites, and infectious disease caused by 
long-understood microbial contaminants. Recent epidemiological and 
toxicological studies have found evidence of potential adverse 
reproductive effects from chlorination byproducts. Studies of pregnant 
women drinking chlorinated water, and of animals have found that some 
chlorination byproducts may cause certain birth defects spontaneous 
abortions, low birth weight, and other effects. We must consider this 
risk real as long as we continue to rely on chlorination as our primary 
method of water purification, we must also explore treatment options 
such as ozonation combined with granular activated carbon, membrane 
filtration, or disinfection through ultraviolet light. Some filtration 
systems available on a small scale in developing nations, however, can 
provide rural communities with a filtration and purification system 
that is simple to use and usually meets US drinking water standards. 
One group, Industry for the Poor, produces and provides low-cost, easy-
to-use filters that provide (1) filtration, (2) chlorination, and (3) 
chlorine removal. Other technologies, such as small scale UV light 
disinfection, also are available for use in developing countries.

Where Do We Go From Here
    NRDC commends the Committee for focusing on this crucial issue. The 
United States must assume a leadership role in addressing the need for 
global safe drinking water so that we may take these plans out of the 
meeting room and put them into action. The solutions are available and 
workable. For poorer countries the failure to enforce environmental 
laws and address potable water needs stems from a need to commit 
limited resources to more pressing problems. Through careful funding 
initiatives this need not be true. For pennies per life improved or 
saved, the global community could rescue millions of children from 
misery or death from waterborne parasites with simple sanitation 
improvements and existing, off-the-shelf water treatment and delivery 
technologies.
    Awareness of the global need and the implications of failing to 
act, however, must be brought to the forefront through awareness-
building initiatives, funding programs, and executive actions. The US 
must lead the world's awareness and public understanding in developed 
nations and build an effective international coalition of religious, 
health, environmental, medical, international relief, and work with 
coalition non-governmental organization (NGO) partners and others to 
resolve drinking water problems--now.
    Even if such leadership were not our moral obligation--which we 
believe it is--we must recognize that in this day of globalization and 
international trade waterborne disease plaguing developing nations can 
spread to developed nations. Imported foods can be grown or washed with 
contaminated water, and waterborne disease that may reach developed 
nations via travelers, ship ballast water, or by other means. As 
citizens of developed nations travel to these regions of our world, 
they can all bring the misery felt in less-developed nations to the 
doorstep of the developed world.
    Heads of state and other senior government officials from nations 
in which drinking water problems are most severe should be called upon 
to publicly discuss and assess the state of their water. An ongoing 
monitoring system must be in place to encourage our progress towards 
safe water for all.
    Congressional leadership can also help bypass the traditional and 
sometimes inefficient aid. The US must recognize that solutions likely 
will vary with the community, but clearly will rely heavily upon 
participation of the local population to encourage a sense of ``buy 
in'' among local people in order to succeed. Awareness, however, must 
begin at home. We must educate the US public about the need to take 
action at home and encourage action abroad.

                               CONCLUSION

    In conclusion, NRDC thanks the Committee for opening the dialogue 
on the need for safe global drinking water. Here in the US we must 
continue to obligate EPA to comply with the requirements of the 1996 
Amendments to the Safe Drinking Water Act. With its implementation, the 
U.S. will begin to achieve substantial public health gains and set an 
example for less-developed nations worldwide.

    Mr. Tauzin [presiding]. Thank you, Ms. Quintero.
    Finally, Ms. Payal Sampat representing the Worldwatch 
Institute here in Washington, DC.

                    STATEMENT OF PAYAL SAMPAT

    Ms. Sampat. Thank you.
    Good morning to the remaining members of the committee. My 
name is Payal Sampat, and I am a research associate at the 
Worldwatch Institute. Worldwatch is an independent, nonprofit 
organization based here in Washington, DC, and we conduct 
research on global, environmental and development issues. Many 
thanks for this opportunity to testify on the global need for 
access to safe drinking water.
    My research has focused on persistent forms of water 
pollution, in particular the chemical contamination of 
underground sources of water, or groundwater. Groundwater is 
the primary source of drinking water for some 1.5 billion 
people worldwide.
    As my colleagues have pointed out, in much of the 
developing world, microbial contamination of drinking water is 
still the most urgent water quality concern. Over 1 billion 
people on this planet do not have access to water that is 
uncontaminated by pathogens. But developing nations and the 
world as a whole are even less prepared to deal with a more 
persistent and insidious threat to drinking water, which is the 
contamination of water supplies by industrial and agricultural 
chemicals. Consequently, some of the poorest nations in the 
world now face a double burden. As they struggle to provide 
their citizens with microbe-free water, they must also grapple 
with the growing threat of toxic chemicals in their drinking 
water supplies. My presentation will focus on this latter 
threat; namely, the chemical contamination of drinking water.
    There are four main points I would like to make. First, the 
chemical contamination of water has increased as chemical use 
and disposal has grown in both develop and industrial 
countries. Second, there may be long lag times between the time 
the chemical is consumed and the appearance of any health 
effects. Third, chemicals are often found in combination, and 
the health effects of consuming these mixtures are still not 
well understood. Finally, an effective policy response will 
require preventing chemical pollution in the first place, 
rather than trying to depend on costly, end-of-pipe water 
treatment.
    Several studies indicate that the concentrations of certain 
chemicals in our water supplies have increased as the use of 
the chemical has grown. One example comes from nitrogen 
fertilizer. In northern China, for example, where fertilizer 
use has been rising, more than half of the wells tested in 1994 
had nitrate concentrations that exceeded World Health 
Organization drinking water guidelines. Reports from regions as 
diverse as Sri Lanka, Romania, Mexico and the United States as 
well show similar nitrate pollution of groundwater. When 
consumed at unsafe levels by infants, nitrate can block the 
oxygen-carrying capacity of their blood, and this can cause 
suffocation and even death. In adults, nitrate has been linked 
to miscarriages in women and to an increased risk of certain 
kinds of cancers.
    Some of the greatest shocks are beginning to be felt in 
places where chemical use and disposal has climbed in recent 
decades, but where the most basic measures to shield water have 
not been taken. In India, for example, 22 major industrial 
zones were surveyed in the mid-1990's, and groundwater in every 
one of them was found to be unfit for drinking and contaminated 
by a toxic brew of chemicals. Because many of the chemicals now 
commonly found in our water supplies do not degrade easily, 
their levels may, in fact, accumulate over time.
    After half a century of spraying DDT in the eastern Indian 
States of West Bengal and Bihar, this chemical was detected in 
groundwater at levels several thousands times higher than what 
is considered an acceptable dose. And these persistent 
chemicals may remain in water even after their original use has 
been terminated. In the United States the soil fumigant DBCP 
was banned in 1977, but it still turns up in our water 
supplies. In the San Joaquin Valley in California, a third of 
the wells sampled between 1971 and 1988 had levels at least 10 
times higher than the maximum allowed for drinking water.
    My second point is that there may be long lag times between 
consuming a chemical and the appearance of any health effects, 
and an example of this comes from Bangladesh, which Ms. 
Quintero just talked about. Concerned about the risks of water-
borne disease, international aid agencies launched a massive 
well-drilling program in the 1970's to tap groundwater instead 
of polluted surface water supplies. At this point, 95 percent 
of the country uses groundwater for drinking. However, the 
sediments of the Ganges aquifers are naturally rich in arsenic, 
thus exposing the population to the heavy metal.
    Because the effects of chronic arsenic poisoning can take 
up to 15 years to appear, the epidemic was not recognized until 
it was well under way. The first signs were skin sores and 
lesions, and later stages of arsenic poisoning can lead to 
gangrene, skin and bladder cancer, damage to vital organs, and 
eventually death. Experts estimate that arsenic in drinking 
water could threaten the health of between 20 and 70 million 
Bangladeshis and between 6- and 30 million people in West 
Bengal in India.
    My third point is that chemicals are often found in 
combination, and the health effects of consuming these mixtures 
are not well understood. Most countries do not have water 
quality standards for all of the hundreds of individual 
pesticides in use. The U.S. EPA, for instance, has drinking 
water standards for just 33 of these compounds, to say nothing 
of the infinite variety of toxic blends now trickling into our 
water supplies. The USGS detected multiple pesticides in 
groundwater at nearly a quarter of the sites sampled across the 
United States between 1993 and 1995. In some States such as 
Washington State, more than two-thirds of water samples 
contained multiple pesticides.
    Similarly, the USGS found that 29 percent of wells near 
urban areas in the United States contained multiple volatile 
organic compounds. The lead researcher in the USGS study notes 
that because current health criteria are based on exposure to a 
single contaminant, the health implications of these mixtures 
are not known. Exposure to a single VOC, volatile organic 
compound, can be dangerous to human health when consumed even 
in small concentrations. Another unpredictable element is the 
interaction between these compounds and the chemicals commonly 
used by utilities to disinfect water, such as chlorine.
    This brings me to my final point, which is that prevention 
of chemical pollution of water is key. Given how much damage 
chemical pollution can inflict on public health, the 
environment, and the economy once it gets into water, it is 
critical that the emphasis be shifted from end-of-pipe 
responses to preventing the damage in the first place. This is 
done by protecting water sources and by using less chemicals in 
the first place.
    For example, the National Research Council estimates that 
in the United States, between one-third and half of nitrogen 
fertilizer applied to crops cannot be utilized by the plants, 
and some of this leaches into groundwater. Experts at the 
United Nations Food and Agricultural Organization say that in 
many countries, pesticides could be applied at one-tenth 
current amounts and still be effective. Research into and 
support of less chemical-intensive agricultural and industrial 
practices is an important step toward protecting the health of 
the planet's people and the water they consume.
    I will be happy to answer any questions, and, once again, I 
thank you for this opportunity to testify.
    [The prepared statement of Payal Sampat follows:]

  PREPARED STATEMENT OF PAYAL SAMPAT, RESEARCH ASSOCIATE, WORLDWATCH 
                               INSTITUTE

    Good morning, Mr. Chairman and members of the Committee. My name is 
Payal Sampat, and I am a research associate at the Worldwatch 
Institute. Worldwatch is an independent, nonprofit environmental 
research organization based here in Washington, DC. Our mission is to 
foster a sustainable society in which human needs are met in ways that 
do not threaten the health of the natural environment or future 
generations. To this end, Worldwatch conducts interdisciplinary 
research on global issues, the results of which are published and 
distributed to decision-makers and the media.
    Thank you for this opportunity to testify on ``The Global Need for 
Access to Safe Drinking Water.'' At the Institute, I work primarily on 
issues related to water quality. My research has focused on persistent 
forms of water pollution, in particular, the chemical contamination of 
underground sources of water, or groundwater. Groundwater is the 
primary source of drinking water for some 1.5 billion people worldwide.
    In much of the developing world, microbial contamination of 
drinking water is still the most urgent water quality concern. By 
latest estimates, some 1.3 billion people on this planet do not have 
access to water that is uncontaminated by pathogens; not surprisingly, 
polluted water is a leading cause of infectious disease in many 
countries. But developing nations, and the world as a whole, are even 
less prepared to deal with a more persistent and insidious threat to 
drinking water, which is the contamination of water supplies by 
industrial and agricultural chemicals. Consequently, some of the 
poorest nations in the world now face a double burden: as they struggle 
to provide their citizens with microbe-free water, they must also 
grapple with the threat of toxic chemicals in their drinking water 
supplies.
    My presentation will focus on this latter threat, namely, chemical 
contamination of drinking water.
    There are four points I'd like to make in my presentation. First, 
chemical contamination of water has increased as chemical use and 
disposal have grown in both developing and industrial countries. 
Second, there may be long lag times between consuming a chemical and 
the appearance of any health effects. Third, chemicals are often found 
in combination, and the health effects of consuming these mixtures are 
not well understood. And fourth, an effective policy response will 
require preventing water pollution in the first place, rather than 
trying to depend on costly end-of-pipe water treatment, which is not 
only costly, but in some cases, ineffective.
    Some of the principal groups of chemicals detected in drinking 
water include fertilizers, pesticides, volatile organic compounds (such 
as chlorinated solvents and petrochemicals), and heavy metals. Most of 
my examples refer to groundwater, since that is my primary area of 
research, but surface water contamination by chemicals is equally 
serious in many regions.
    1. The incidence of chemical contamination of water has increased 
as chemical use and disposal have grown. Several studies indicate that 
the concentrations of certain chemicals in water supplies have 
increased as their use has grown. One example is nitrogen fertilizer 
use. In California's Central Valley, for example, nitrate levels in 
groundwater increased 2.5 times between the 1950s and 1980s--a period 
in which the region's fertilizer use grew 6-fold. In Northern China, 
where fertilizer use has also been rising, more than half the wells 
tested in 1994 had nitrate concentrations that exceeded the World 
Health Organization (WHO) drinking water guideline. Reports from 
regions as diverse as Sri Lanka, Romania, and Mexico, show similar 
results. When nitrate is consumed at unsafe levels by infants, it can 
block the oxygen-carrying capacity of their blood, causing suffocation 
and death. In adults, nitrate has been linked to miscarriages in women, 
and to an increased risk of certain kinds of cancers.
    Some of the greatest shocks are beginning to be felt in places 
where chemical use and disposal has climbed in the last few decades, 
and where the most basic measures to shield groundwater have not been 
taken. In India, for example, the Central Pollution Control Board 
surveyed 22 major industrial zones in the mid-1990s and found that 
groundwater in every one of them was unfit for drinking.
    And because many of the chemicals now commonly found in our water 
supplies do not degrade easily, their levels may accumulate over time. 
After half a century of spraying in the eastern Indian states of West 
Bengal and Bihar, for example, the Central Pollution Control Board 
found DDT in groundwater at levels as high as 4,500 micrograms per 
liter--several thousand times higher than what is considered an 
acceptable dose. And persistent chemicals may remain in water long 
after their original use. The soil fumigant DBCP (dibromochloropropane) 
was banned in the United States in 1977, but it still lurks in the 
country's water supplies. In the San Joaquin Valley of California where 
DBCP was used intensively in fruit orchards, a third of the wells 
sampled between 1971 and 1988 had levels that were at least 10 times 
higher than the maximum allowed for drinking water.
    2. There may be long lag times between consuming the chemical and 
the appearance of any health effects. Until the early 1970s, rivers and 
ponds supplied most of Bangladesh's drinking water. Concerned about the 
risks of water-borne disease, international aid agencies launched a 
well-drilling program to tap groundwater instead. By the early 1990s, 
nearly 95 percent of Bangladesh's people got their drinking water from 
tubewells.
    However, the agencies, not aware that soils of the Ganges aquifers 
are naturally rich in arsenic, did not test the sediment before 
drilling tubewells. Because the effects of chronic arsenic poisoning 
can take up to 15 years to appear, the epidemic was not recognized 
until it was well under way. The first signs of arsenic poisoning 
include skin sores and lesions; in later stages, the disease can lead 
to gangrene, skin and bladder cancer, damage to vital organs, and 
eventually, death.
    Experts estimate that arsenic in drinking water could threaten the 
health of between 20 to 70 million Bangladeshis and another 6 to 30 
million people in West Bengal, India. As many as 1 million wells in the 
region may be contaminated with the heavy metal at levels between 5 and 
100 times the WHO drinking water guideline of 0.01 mg/liter.
    3. Chemicals are often found in combination, and the health effects 
of consuming these mixtures are not well understood. Most countries do 
not have water quality standards for the many hundred individual 
pesticides in use--the U.S. Environmental Protection Agency (EPA) has 
drinking water standards for just 33 of these compounds--to say nothing 
of the infinite variety of toxic blends now trickling into the 
groundwater. For instance, the U.S. Geological Survey (USGS) detected 
two or more pesticides in groundwater at nearly a quarter of the sites 
sampled across the United States between 1993 and 1995. In the Central 
Columbia Plateau aquifer, which lies under the states of Washington and 
Idaho, more than two-thirds of water samples contained multiple 
pesticides.
    But there is some indication of possible additive or synergistic 
surprises we can expect. When researchers at the University of 
Wisconsin examined the effects of aldicarb, atrazine and nitrate blends 
in groundwater--a mixture typically found beneath U.S. farms--they 
found that ``more biological responses occur in the presence of 
mixtures of common groundwater contaminants than if contaminants occur 
singly.'' Fluctuation in concentrations of the thyroid hormone, for 
example, is a typical response to mixtures, but not usually to 
individual chemicals. Other research found that combinations of 
pesticides increased the incidence of fetal abnormalities in the 
children of pesticide sprayers.
    Industrial compounds such as petrochemicals and solvents are also 
typically found in combination. In tests conducted between 1985 and 
1995, the USGS found 29 percent of wells near urban areas in the United 
States contained multiple Volatile Organic Compounds (VOCs); overall, a 
total of 46 different kinds of these compounds turned up in 
groundwater. But the lead researcher in the USGS study notes that 
``because current health criteria are based on exposure to a single 
contaminant, the health implications of these mixtures are not known.'' 
Exposure to a single VOC can be dangerous to human health when consumed 
even in small concentrations. Women exposed to chlorinated solvents 
were found to have a two-to four-fold higher incidence of miscarriages. 
These compounds have also been linked to kidney and liver damage and 
childhood cancers.
    Another unpredictable element is the interaction between these 
compounds and the chemicals commonly used by utilities to disinfect 
water, such as chlorine.
    4. Prevention is key. When chemicals are found in unpredictable 
mixtures, rather than discretely, utilities will have to resort to 
increasingly elaborate water treatment set-ups to make the water safe 
for drinking. But given how much damage chemical pollution can inflict 
on public health, the environment, and the economy, once it gets into 
the water, it's critical that emphasis be shifted from end-of-pipe 
responses to preventing the damage in the first place. This is done by 
protecting water sources, and by using less chemicals in the first 
place. For example, the National Research Council estimates that in the 
United States, between a third and half of nitrogen fertilizer applied 
to crops cannot be utilized by the plants. Experts at the United 
Nations Food and Agricultural Organization say that in many countries, 
pesticides could be applied at one-tenth current amounts and still be 
effective. Research into less chemical-intensive agricultural and 
industrial practices is an important step toward protecting the health 
of the planet's people and the water they consume.
    Mr. Chairman, I respectfully request that an article I authored on 
the subject of global groundwater quality be submitted as part of the 
hearing record to complement my own brief statements.
    I would be happy to answer any questions. Thank you again for this 
opportunity to testify.

    Mr. Tauzin. Thank you, Ms. Sampat.
    The Chair recognizes himself and then members in order.
    Let me, first of all, thank you all for coming. This is, I 
think, the final hearing of our committee scheduled for this 
Congress, and it is fitting that we conclude it on an issue of 
not only importance here in this country, but of global 
significance, such as safe water for drinking and the problems 
associated with sanitary conditions of contaminated water.
    I wanted to put something in context, first of all, Ms. 
Quintero, because you raised the issue of congressional action 
to extend the deadline on the arsenic standard. I understand 
Mr. Brown has made similar comments. You correctly identify a 
problem at EPA, that EPA has missed most of its deadlines; is 
that not correct?
    Ms. Quintero. That is correct.
    Mr. Tauzin. In fact, EPA was as much as a year late in 
drafting its research plan; is that not right?
    Ms. Quintero. That is correct.
    Mr. Tauzin. And they were 6 months late on the schedule in 
proposing the standard in the first place; is that not right?
    Ms. Quintero. That is right.
    Mr. Tauzin. Are you aware of when the comment period 
finally closed on the rule?
    Ms. Quintero. I believe it closed, I don't know the exact 
date, but sometime in August.
    Mr. Tauzin. No. September 20. Yes. That is our problem, and 
in your statement you mention the irony of us having to extend 
the deadline. The comment period just closed, September 20. Do 
you know how many comments EPA received?
    Ms. Quintero. Yes.
    Mr. Tauzin. They received 883 comments. We are stuck with 
the problem of the EPA having literally missed their deadlines 
and finally get the comment period completed, we got 883 
comments, and we may not have a choice but to extend the 
deadline on completing this work, simply because EPA has 
unfortunately put us in that position. That is where we are. I 
just wanted you to know that.
    Let me turn to the general questions that you posed for us. 
In the context of world health and safety issues, we all know 
that there are certain essentials in our lives, and water 
clearly is one of them. The irony is that in America, when 
people are polled as to what the essentials are in their lives, 
they list things such as VCRs, mobile phones and computers, as 
though those are essentials. I grew up in a rural part of 
Louisiana where we understood water and air and things like 
food, shelter were the critical essentials, but in a great 
country with so many blessings like ours, we sometimes forget 
how critical those essentials are, not only here in this 
country, but where we take safe water literally for granted.
    But in so many areas of the world, and I visited 
Tegucigalpa back in the 1980's and learned tragically that the 
life expectancy of life in Honduras and many other countries 
that are neighbors of ours are 49 years of age, primarily 
because of bad drinking water and unsanitary conditions, all of 
the conditions that you have outlined for us in your film and 
in your testimonies today.
    I wonder if you would rank this for us. I know that 
obviously global warming and clean air and preservation of 
habitat and species, there are a lot of environmental concerns 
that still plague us here in this country and around the world. 
Where would you rank this issue that you have testified on 
today? Any one of you want to put it--is it at the top? Is the 
most serious thing affecting world health and safety and 
populations and children, as you pointed out very adequately in 
your testimony, is it the top one, Mr. Weiner?
    Mr. Weiner. Let me respond very briefly by--I am not a 
scientist, I am sort of a--I work for PBS. I am sort of your 
ears and your eyes, and then we try to gather material and 
present it in a nonefficacy way. We have a group of scientists 
that advise us at Journey to Planet Earth, and I sent them an 
e-mail and I said, I am going to be testifying, I am going to 
talk on this issue. What do you think are the most important 
issues of water? These are pretty high people. It includes 
Jessica Tuckman Matthews over at the Carnegie Institute for 
Peace; Morris Strong, who is the Assistant Secretary General at 
the U.N. in terms of the Rio Conference, et cetera. And what 
they asked me to express to the committee was an overwhelming 
concern of national security. We do recognize disease is 
terribly important; the economics of the situation is terribly 
important, but perhaps to answer the question why should we 
care, why should Americans care about this, on--.
    Mr. Tauzin. Other than humanitarian concerns.
    Mr. Weiner [continuing]. Is the issue of national security.
    Mr. Tauzin. How do you tie that; how does that fit?
    Mr. Weiner. Well, let me give you an example. The Middle 
East is a tinderbox, and much of it is over water. There is an 
aquifer that is shared inequitably.
    Mr. Tauzin. I visited the River Jordan.
    Mr. Weiner. Pretty tiny, isn't it?
    Mr. Tauzin. Yes. I sat on top the Golan Heights and 
realized how critical--it is just a little tiny river, and yet 
how critical it is to people who are fighting over water there.
    Mr. Weiner. More critical is the shared aquifer, which is 
nonrenewable.
    We are doing a show now in Mexico dealing with the problems 
in Chiapas. Chiapas is an environmental story. It is 
inequitable sharing of resources.
    We are doing a story on the Nile River Valley, which is--.
    Mr. Tauzin. What you are basically saying is that it has 
national security implications because people will go to war, 
they will die, they will fight over the access to water 
supplies, to irrigate, drink, to live, to raise their families, 
right?
    Mr. Weiner. Right.
    Mr. Tauzin. And the contamination, one country, one people 
contaminating water supplies that are critical for other people 
obviously will have some of the similar effects, right?
    We are going to go from 5.7 billion people on this planet 
to 9.4 billion by the year 2050. Your film depicts what happens 
when populations expand dramatically without consideration for 
water supplies, and drinking water supplies, and sanitation 
disposal, and chemical treatment before it contaminates our 
underground water supplies. We can expect a lot more of this, I 
suppose, with a 9.4 billion population in just 50 years; is 
that right? This gets worse, not better, unless we take it and 
make it a huge national and international priority, right?
    Mr. Jones.
    Mr. Jones. Ranking, though, the catalog of the world's ills 
and trying to find one is tough, but, I mean, certainly water 
would permeate so many things, and as we were talking, I was 
thinking--just jotting down some points here, and you think 
about the things we talk about here today that are important, 
you can see how water impacts on--my colleagues here at the 
table mentioned a conflict in the macro sense. We have seen how 
water, if it is handled well, can smooth over conflict at local 
community levels. We have a project in the northwestern part of 
Kenya, the Kerio Valley, where two ethnic groups are 
constantly--nomadic ethnic groups are constantly fighting over 
the scarce water resources.
    But doing water well in a place like that really allows you 
to smooth over conflict, so it has positive potential at the 
grassroots level too.
    Another thing that we talk a lot about today is the 
democratization. You wonder how does water fit into that. But 
we have seen that in our projects that it is not enough just to 
build a water system or sanitation system. You need community 
involvement to sustain it, and we can often pull on networks of 
volunteers at a grassroots level. This is one step in the whole 
democratization process, of getting people at the grassroots 
level to take responsibility for their lives. That is probably 
one of the most gratifying things we have seen in water 
projects at the community level.
    Mr. Tauzin. We are getting called on a vote. Is that a 
warning for two votes? Let me recognize Mr. Brown.
    Mr. Brown. I thank the chairman.
    Several of you mentioned the arsenic issue. I want to come 
back to that. Mrs. Sampat, you mentioned arsenic in the Ganges. 
Miss Quintero, you mentioned it in wells. Mr. Lockery, you 
mentioned it also in your written testimony.
    We know what we need to do in this country with arsenic. We 
need to follow the recommendations of the EPA. We need to 
follow the recommendations of the National Research Council, 
which is an arm of the National Academy of Sciences and make 
the standards perhaps as much as 1,000 percent, 10 times more 
strict, more stringent.
    I am a little troubled by the sort of let's--while not 
letting EPA off the hook--let's beat up EPA. Just like in this 
institution, this committee, we decided to beat up on the 
Highway Safety, and give the government--the regulators on the 
Firestone/Ford problem, when this same institution has done all 
it can in weakening those agencies that protect the public--
weakening the EPA, cutting their funding, cutting a number of 
OSHA inspectors, cutting here, cutting there, beating up on 
these agencies; and then, when they do not protect the public, 
we wonder why don't they protect the public.
    Well, it is because in the case of arsenic, the pressure 
from the mining industry on OMB, the pressure--in other cases 
you can make a whole litany of that, and it is unfortunate that 
we do not, when it comes time to protect the public, especially 
in something that the public absolutely understands like 
arsenic, that EPA, that Congress should not interfere.
    Certainly EPA should have moved more quickly. EPA, 
unfortunately, succumbed too much with OMB to pressures from 
outside, mostly the mining industry. But EPA should have done 
its job better. But that doesn't mean that Congress should say, 
well, let's delay it even longer. Instead of January 1, this 
year, let's get it in next year. We will have a new 
administration, a new EPA administrator. And then it will get 
delayed even further when every scientist knows that arsenic 
levels are absolutely too high. So I think we know what to do 
in this country.
    My question is for the three of you that I mentioned--Mr. 
Lockery, Ms. Quintero, Ms. Sampat--what do we do in the places 
you mentioned about arsenic? What do we do? What do they do? 
Briefly, each of the three of you, if you would.
    Ms. Quintero. I will gladly begin.
    First of all, you are absolutely right. Why let EPA off the 
hook? And our whole idea here is we have to set an example. I 
mean, beginning with the U.S., if we can't get things done 
here, we are not going to be able to set a proper example on 
how things ought to be done there.
    We know what needs to be done. Having Congress say the word 
on extending this deadline goes far beyond what is necessary to 
give EPA time to respond to its comments and time to actually 
promulgate the rule. While they may not meet the January 1 
deadline and it may be tight, that is what the law says and we 
should respect it as it is, rather than weakening our position 
in front of the world forum.
    As for Bangladesh, it is really the only country where I 
have spoken to people there. They need assistance in tapping 
new sources, tapping new wells, putting to use the monitoring 
systems that are available at low cost and the new and other 
treatment systems that are available to prevent this type of 
contamination. But the main thing is tapping new wells. And 
while that is not a perfect solution, it is a solution and one 
that, due to their economic state, has been difficult. But I 
believe that, as far as Bangladesh goes, that is one of the 
many things that can be done to assist them.
    Mr. Tauzin. Let me ask you, please, to expedite your 
answers. I will try to get Mr. Gillmor's questions in before we 
have to leave, too, so if you can expedite, please.
    Mr. Lockery. On Bangladesh, the problem is there are 
something like a million tube wells in Bangladesh; and so, 
first of all, defining what the extent of the problem is is 
very difficult. Just imagine carrying out tests on a million 
tube wells.
    The first problem is you have to agree on the test you will 
carry out. What test procedure are you going to use?
    Then when you have defined the problem, what solutions can 
you use? What are the appropriate solutions? You could tap 
deeper aquifers. But where are the resources going to come from 
for doing that?
    So now it is a case of finding what are appropriate 
technology solutions. What can you use at village level? What 
is affordable? What solutions are available and how well do 
they work?
    Then, finally, when you have figured out what the problem 
is, what the appropriate technology is, we then have got to 
make people aware, got to give them access to the new 
technology; and we are talking about 100 million people.
    And, finally, it is not as though the problem is located in 
one particular area of the country. It is spread across the 
whole country in pockets. One well can be fine, and you go a 
hundred meters down the road and another well may be 
contaminated. So I think it is a problem of huge proportions. 
So I think the Bangladeshis in many ways have made good efforts 
to deal with the problem but don't underestimate the problem.
    Mr. Tauzin. Thank you.
    The Chair recognizes Mr. Gillmor for a round of questions.
    Mr. Gillmor. Thank you, Mr. Chairman.
    I just want to make a comment on the comments by Mr. Brown 
blaming Congress for problems with arsenic. The truth of the 
matter is the Clinton-Gore administration proposed to delete 
targeted funding for arsenic research, and actually Congress 
has provided millions more for this research than the EPA 
requested. It was $4.8 million more in fiscal year 1997, 
$500,000 more in fiscal year 1998 and $1.6 million more in 
fiscal year 1991.
    But I want to ask a question to Mr. Lockery and Mr. Jones 
because we legislate here, or at least we try to. Are there 
specific legislative measures that you would recommend to help 
in the cause? Are there legal or statutory impediments to 
delivering the service that do not make sense or make the job 
more difficult?
    Mr. Tauzin. I am going to announce for the record we will 
come back following the vote so we will have time to examine 
more issues.
    Mr. Brown. If the gentleman would yield, Ms. Sampat did not 
have a chance to answer.
    Mr. Tauzin. We will come back to her when we have a chance.
    Mr. Gillmor has the floor.
    Mr. Gillmor. I think you heard my question. If there is 
something we can do or some impediments which that you have to 
deal with of a legal nature.
    Mr. Lockery. As far as I am concerned, sir, I don't think I 
am competent to answer that question.
    Mr. Jones. Also, we are not seeking a legislative remedy. I 
think something that is helpful, that Congress is aware of the 
movements toward the industry of policing itself and things 
such as the Sphere Standards, which are a body of commitments 
that the non-governmental organizations, the relief and 
development community have come together to assure that they 
deliver a quality product. I think that is a step in the right 
direction, and it is not something we are seeking legislative 
remedy for but just something that you should be aware of, that 
there are standards and it is important to conform to 
standards.
    Mr. Gillmor. Thank you.
    Mr. Tauzin. Thank you, Mr. Gillmor.
    While my friend is still here, before we break, the 
chairman wants to take the privilege to comment that we have 
not beat up NHTSA for failure to do a job that it was funded to 
do. NHTSA, with a five cent phone call, could have returned a 
phone call to State Farm Insurance in July 1998 and learned 
that it had a recall problem. They just filed that information 
away in a wastebasket instead. For five cents, that is all it 
had to do.
    NHTSA saved a lots of lives. I have congratulated and 
commended them. They are one of my favorite agencies. But when 
they fail to protect Americans on the highway I will jump on 
them. Absolutely.
    I don't appreciate people trying to blame their problems on 
Ronald Reagan or anybody else--or Herbert Hoover, for that 
matter. Five cents was all it took to make a phone call to 
State Farm, and they would have known they had a recall 
problem. I don't beat up on EPA unless they deserve it. In this 
case, they deserved it. They missed their deadlines. They had 
money appropriated to meet their deadlines. Now we are stuck 
with a comment period that just ended on September 20.
    But I will let my friend respond, if he would like to.
    Then the committee stands in recess for about 15 minutes, I 
think.
    [Brief recess.]
    Chairman Bliley. The committee will come to order.
    Will the gentleman in the rear close the door, please? 
Thank you.
    I believe you have a follow-up question to Ms. Sampat.
    Mr. Brown. Actually, she did not get an opportunity to 
answer the question that Mr. Lockery and Ms. Quintero answered 
on what to do with the Ganges in terms of arsenic. Thank you, 
Mr. Chairman.
    Ms. Sampat. As I pointed out earlier, there are about a 
million wells that are affected with arsenic levels between 5 
and 100 times the WHO guideline, and there are a number of 
international agencies in place. Basically, the situation right 
now is something of a triage, really, trying to make sure that 
the population is not exposed to increased levels of arsenic.
    But I think the two lessons that come out of this, you 
know, the first one is the precautionary principal. What 
happened was in the 1970's these wells were dug because surface 
water was really polluted. However, there was no testing done 
to see if there were naturally occurring levels of arsenic in 
the sediment. So I think sort of applying the precautionary 
principal to the way we look at water and protection of water 
sources and prevention of chemical pollution of water is 
important not just for naturally occurring substances but as 
far as agricultural run-off and industrial effluent and so on 
are concerned.
    Then, specifically with the Bangladesh situation, I think 
U.S. Assistance of the current health care and water protection 
efforts that are going on in Bangladesh are going to be key.
    Finally, I support Mrs. Quintero's comments on the arsenic 
guideline in this country, although it is slightly unrelated, 
given the natural occurrence in Bangladesh.
    Chairman Bliley.  The gentleman from Wisconsin, Mr. 
Barrett.
    Mr. Barrett. Thank you, Mr. Chairman. I am honored to be at 
what I think might be your last hearing.
    Mr. Lockery, we have heard today that there is over a 
billion people in the world, in the developed world, that do 
not have access to safe drinking water. Obviously, this is a 
grave situation and one where the United States can and should 
play a leadership role.
    I am curious as to how this demand in clean water affects 
the supply, and I asked that question to someone who represents 
a community that borders the Great Lakes. As you may or may not 
know, in 1998 a Canadian company was about to sell 150 million 
gallons of water from the Great Lakes to Asia before widespread 
concern forced the plan to be dropped. So as the need for clean 
drinking water to Asia and other countries around the world 
grows, what do you see the likelihood that calls to divert from 
places like the Great Lakes or other freshwater sources in the 
U.S. Will grow?
    Mr. Lockery. First of all, I think there are two problems 
here. One is around water quality, and the other is around the 
quantity of water. The billion people--it is more than a 
billion people, of course, that do not have safe water. In a 
number of cases, they have water supply. Everybody has a water 
supply. So it is quality issue. They do not have access to safe 
water. They have access to some water.
    With regard to the quantity, if you look at the sort of 
water resource figures for the world, my sense is that in many 
places there are existing resources that can be used for 
drinking. In other words, the water is there. But it may be not 
possible for people to use it. It is just too far away from 
them.
    I don't see the large shipments of water from the Great 
Lakes to Asia or to Africa. I think the water resources are 
there. It is a question of bringing them closer to people. It 
is a question of managing the water resources better so that 
you cut down pollution, you cut down agricultural run-off, soil 
erosion, et cetera. You make a better use of the existing 
resources.
    Mr. Barrett. Thank you.
    Dr. Huq--is that how you pronounce it?
    Mr. Huq. Huq.
    Mr. Barrett. Huq. I understand from your testimony that 
sources of water contamination in the industrialized world may 
differ from problems in the developing countries; and I also 
understand that simple interventions, like filtering water 
through a sari cloth in Bangladesh, can reduce the spread of 
waterborne disease.
    The community that I represent, Milwaukee, was the 
community that was hit hard in 1993 by cryptosporidium; and 
obviously many of us who work in Washington have read about the 
physteria which has plagued the Eastern Shore in recent years. 
Are there public health lessons learned or technologies 
implemented in the U.S. In response to these that you see as 
important or are we going to see more of these types of 
outbreaks? What is your feel there?
    Mr. Huq. Well, as I think Ms. Sampat mentioned, that nine 
out of ten water filtration systems in this country exist which 
is using the system which is 50, 100 years old. So you have to 
improve and introduce newer technology. That is one important 
thing.
    Chlorination has been widely used, but there are some 
findings--like we published a paper that underchlorination 
sometimes introduce some of the organisms in a non-culturable 
state. It means the organisms are still alive, viable, they 
maintain their virulence, but they do not appear on the 
conventional culture method by which usually people determine 
whether the organisms are there or not.
    So that is something we have to do in this country to 
improve the system of purification and also the age old 
pipeline where this taking place. Those kinds of research I 
think is very important in this country.
    Mr. Barrett. Is it easy to get those developing countries 
to do that type of research?
    Mr. Huq. It is easy?
    Mr. Barrett. Is it something that is being done? Are we 
imparting some of the knowledge that we have learned from some 
of these outbreaks to the developing countries at a fast enough 
speed, do you think?
    Mr. Huq. It is easy to some extent when we really know how 
much it is--how much the bigger problem is. Then probably we 
need to know a little more before we can really implement it.
    Mr. Barrett. Thank you, Mr. Chairman.
    Mr. Tauzin. The time of the gentleman has expired.
    The gentleman from Tennessee, Mr. Bryant.
    Mr. Bryant. Thank you, Mr. Chairman, for holding this--
apparently your last hearing, and it is certainly a very 
appropriate one.
    I thank the panel for being here. As you can see from the 
members and our moving in and out, there are many other things 
going on on the Hill today; and I will be leaving very shortly 
to go to the floor to speak on the subject of bankruptcy 
reform, which is one of the issues that will be before this 
Congress before we adjourn. But, again, thank you for being 
here with us.
    I have just some general questions. Perhaps if one or two 
of you could volunteer answers, I don't think I have enough 
time for each of you to respond.
    But I am wondering if one of you or two of you could 
respond quickly on how investments in the international 
assistance should be prioritized and what are the most 
important areas, who should receive first funding and how can 
initial investments in safe drinking water and waste water 
facilities be sustained over time.
    Anyone want to jump into that one? Miss Quintero.
    Ms. Quintero. Yes. Well, very briefly.
    What we need to do is, first of all, make it, as I have 
stated several times, a priority. If the funding is more 
targeted and if we are able to share our knowledge--for 
example, the American Waterworks Association has a non-profit 
branch that works internationally called Water for People. 
Their expertise, as we know from their work here nationally, is 
probably the best that you can find internationally short of 
some of the knowledge that we have coming from France. But they 
have not had the same backing and the same funding to be able 
to actually get into these countries and truly to do the work 
that we are doing here there.
    There are many smaller non-governmental organizations that 
do that same type of work. And the importance is to recognize 
that it is two-fold. We need smaller groups that can go into 
the small rural villages and people with more urban expertise 
to go into these urban perimeter areas which are more and more 
becoming the subject of controversy today because--by virtue of 
the fact that access to water in rural communities is so 
limited that people--and access to all conveniences is so 
limited that people are moving to the cities, and these cities 
do not have infrastructures to provide water to all the people 
who are living around their areas.
    So by providing more funding and support to our own NGO's 
and to our own experts, either through tax credits or I don't 
exactly know how, but I think we can do more and export our 
knowledge, because we still are respected as knowledgeable and 
capable of embarking on these projects. So I would suggest that 
is one good way to start at the beginning.
    Mr. Jones. I would like to say that I think we have to be 
careful that, while in this day and age I would never want to 
downplay the importance of technology, but I think the 
distinction that was just made between the urban systems and 
the rural systems is a very important one to keep in mind. I 
think we have to ask why in the past have rural systems so 
often failed when you go back after 3 years, 5 years, 6 years 
and find that systems have broken down. And I think we have to 
emphasize the importance of sustainability, which gets you into 
the importance of grassroots networks that are able to mobilize 
populations to take ownership of these projects. You need 
communities that will produce volunteers and networks of people 
who have an ownership in these things.
    So that is not to downgrade the importance of technology, 
certainly in the big urban situations, but in these rural 
situations technology might not be the silver bullet. But what 
you need is that very hard community-building process of 
drawing on human resources and community networks that allow 
you to sustain a system.
    Mr. Bryant. I thank you for your answers. Certainly that 
specifically deals with the issue of sustainability that I 
asked.
    Again, to the entire panel, sort of shifting gears a little 
bit. There is apparently some dispute, at least in the academic 
communities, over the potential for future conflict worldwide 
with respect to water resources. Does anyone have an opinion on 
that they would like to share with this committee?
    Mr. Weiner. Well, I did share it a little bit earlier. A 
good deal of our work in upcoming episodes in Journey to Planet 
Earth, a PBS series, is going to deal specifically with 
environmental security. We showed some examples of the problems 
in the Middle East which are quite obvious, shared aquifers and 
shared water resources which is exploding right now in the 
Middle East. I just think that, unless we recognize the issues 
of environmental security, things could conceivably get out of 
hand.
    I suppose one way to bring it home to the American public 
is that--we are investigating the story right now that started 
in the Bay of Bengal in Bangladesh. A freighter took on bilge 
water, contaminated water and released it off the coast of 
Peru, and I believe, and the panel probably knows it better 
than I do, and started the biggest cholera epidemic in South 
American history. Can you imagine that if that was released in 
the Gulf of Mexico or the port of New Orleans? All of a sudden 
there would be a wake-up call in terms of why we have care 
about what is happening in the rest of the world.
    We are also doing a story about Haiti and the collapse of 
Haiti. The political collapse of Haiti is directly associated 
with the environmental collapse of that island and hence 
refugees coming into the United States and the problems 
associated with that.
    So I can cite many, many examples of things that we are 
exploring right now.
    Mr. Bryant. Thank you. I thank the Chair.
    Chairman Bliley.  The time of the gentleman has expired.
    The Chair recognizes himself for a round.
    Mr. Weiner, do you have a sense or any knowledge of how the 
governments of Mexico or Turkey are responding to the problems 
presented in your films?
    Mr. Weiner. No. All I can tell you is what I have seen. And 
I have seen in Mexico major demonstrations that have not 
enlisted from the government proper response. In that opening 
sequence in Mexico City, you saw a demonstration. That 
demonstration was the Sandinistas coming into Mexico City. Our 
cameras happened to be there. It was the first time they 
entered Mexico City and demonstrated for their cause. The 
equitable cause in Chiapas and the response from the Mexican 
government I think has been less than positive.
    In Istanbul, when we were there a couple of years ago, the 
local authorities refused to accept the fact that they had a 
problem. We wanted to do a story about the Kurds coming into 
Istanbul, and we suggested we go to the bus station where they 
are all coming in. And they said, why do you want to do that? 
Why don't you go to the airport? And we said, I don't think 
refugees come into the airport.
    These issues are very hard for governments to recognize.
    Also, Zimbabwe is another example of the government 
refusing to accept an environmental problem; and they turned it 
into a political problem to maintain their power, basically.
    Chairman Bliley.  Thank you.
    Mr. Lockery, what is CARE's strategy for increasing 
carriage in rural and urban areas?
    Mr. Lockery. I think it is one of empowerment, Mr. 
Chairman. I mentioned in my testimony the need to put people at 
the center, and I think what we have learned through both our 
rural and urban programming is the need to empower communities, 
to build their capacity both at the individual level and the 
community level so they are able to make decisions for 
themselves on the type of service they want, the level of 
service; and, of course, the better the service the higher the 
contribution that is required. But the kernel of the strategy 
is this issue of empowering communities.
    Chairman Bliley.  Thank you.
    Mr. Jones, if Congress were to appropriate more funds in 
support of this issue, how would you use the funds?
    Mr. Jones. Our emphasis has traditionally been on rural 
projects, and there would be an expansion of existing 
programming which I think is good programming as it exists now.
    It also emphasizes, as I think as my colleague from CARE 
just said, the importance of empowering communities. More 
resources would allow us to meet more communities. We are 
fortunate in that we have a preexisting partner on the ground 
in all of the countries we work. Every country has a Red Cross 
or a Red Crescent Society. That Red Cross or Red Crescent has a 
community network. We have got to strengthen that network.
    As I said earlier, it is not just the technology of digging 
a well, which is pretty straightforward. The challenge is 
sustaining that well, mobilizing the community to take 
ownership of it. More resources would allow an expansion of 
existing projects and would take a lot of pressures off 
movement into urban areas and movements of things like this.
    Chairman Bliley.  Thank you.
    Dr. Huq, you describe a simple filtration method involving 
saris, the local cloth of India and Bangladesh, as a way of 
decontaminating water from the threat of cholera. Your study 
finds this method has a very useful impact. How much of our 
arsenal must be education of developing populations about these 
simple techniques and about hygiene?
    Mr. Huq. This is a very important issue, education, 
motivation and massive public awareness. Like there is a 
finding, we know just hand washing reduces shigellosis 
tremendously. In our study at the present time, one to one 
villagers are now being educated how to use this filter when 
there is no cost involved. All they need to know is how to use 
the filter and filter their water when they bring it in their 
home. That has reduced threefold cholera cases--I mean, 
threefold reduction in cholera cases in our first 3 months of 
study. So this is important, how to educate these people, and 
it takes time. All these illiterate people, they really don't 
understand when it is told the first time, maybe repeatedly 
when they are told. Once it goes in their mind and they 
understand, then they use it. So for education, massive amount 
of effort is needed.
    Chairman Bliley.  Thank you.
    Are there additional questions from the members?
    If not, the Chair certainly wants to thank the witnesses 
for your testimony.
    The Chair notes that some members are detained in other 
meetings and may have additional questions or written materials 
for you which they may wish to submit for the record. So, 
without objection, the hearing record will remain open for 30 
days for the members to submit such materials or submit written 
questions to the witnesses and to place their responses in the 
recorded. It is so ordered.
    Mr. Barrett. Mr. Chairman, since this is your last hearing, 
if I am not mistaken, you began your career as a Democrat and 
as you are ending here in the committee, just remember it was 
the Democrats who were with you here until the very end.
    Chairman Bliley.  The Chair duly notes that. Thank you. 
Thank you very much.
    [Whereupon, at 12:04 p.m., the committee was adjourned.]

</pre></body></html>
